Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   OUTSIDE ACTIVITIES OF 

SENIOR-LEVEL NIH EMPLOYEES





                    Daniel R. Levinson 

                     Inspector General 


                       July 2005

                     OEI-01-04-00150

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts management and
program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees State Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops compliance program guidances, renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                         S U M M A R Y              



                  OBJECTIVES
                  1. 	 To describe the nature of outside activities for which senior-level
                       National Institutes of Health (NIH) employees received approval
                       between 2001 and 2003.

                  2. 	 To determine the extent to which senior-level NIH employees
                       provided key information on their outside activity forms and
                       supporting documentation between 2001 and 2003.

                  3. 	 To assess NIH’s process for reviewing outside activity requests
                       between 2001 and 2003.


                  BACKGROUND
                  In general, employees of the Department of Health and Human Services
                  (HHS) are allowed to work privately with non-Federal entities on their
                  personal time through outside activities, which in some cases require
                  prior approval. Examples of outside activities include consulting,
                  teaching, speaking, and writing related to official duties. These
                  activities must not conflict with employees’ official duties, and may or
                  may not involve financial compensation. Outside activities must be
                  approved in accordance with regulations issued by the Office of
                  Government Ethics and supplemental rules issued by HHS.

                  In December 2003, an investigative report in the Los Angeles Times
                  raised concerns about the ethics program at NIH. This article alleged
                  that certain approved outside activities (i.e., consulting arrangements)
                  of several NIH employees had created serious conflicts of interest that
                  may have biased agency decisions. In response to these allegations,
                  several internal and external groups have conducted reviews of NIH’s
                  ethics program.

                  NIH takes a decentralized approach to implementing and overseeing its
                  ethics program. NIH has 27 institutes and centers, as well as a central
                  Office of the Director, Office of Research Facilities, and Office of
                  Research Services (all hereafter referred to as institutes). Each
                  institute has its own ethics staff.

                  When an employee seeks to participate in an outside activity, he or she
                  submits an outside activity request (the HHS-520 form) and supporting
                  documentation (which often includes two additional forms, the
                  NIH-2657 and the unnumbered supplemental form) to his or her
                  supervisor. The supervisor makes a recommendation regarding

OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                       i
E X E C U T I V E               S U          M M A R Y


                   whether the activity should be approved and then forwards the request
                   on to the appropriate ethics official, who makes a final determination.

                   We conducted a retrospective review of all outside activity requests and
                   supporting documentation that senior-level employees submitted to
                   NIH ethics officials between January 1, 2001, and December 31, 2003.
                   We defined senior-level employees to be those employees who were
                   required to file Standard Form (SF)-278 public disclosure financial
                   forms as of February 2004. We also interviewed the ethics staff at each
                   NIH institute. Finally, we reviewed institutes’ written procedures
                   related to outside activities.
                   We conducted this review prior to February 2005, when HHS issued an
                   interim final rule that placed several new restrictions on the types of
                   outside activities in which NIH employees are allowed to participate.


                   NATURE OF OUTSIDE ACTIVITIES
                   Forty percent of senior-level employees at NIH received approval for
                   319 outside activities between 2001 and 2003. Of the 174 senior-level
                   employees at NIH, 78 requested approval for 355 outside activities
                   between 2001 and 2003. NIH approved 90 percent, or 319, of these
                   requests for 69 senior-level employees.

                   About half of these outside activities involved teaching or consulting
                   and most were compensated. Thirty-three percent of the approved
                   activities were for teaching/lecturing. Twenty percent of the approved
                   activities were for consulting, of which almost half involved
                   pharmaceutical or biotechnology companies. Eighty-eight percent of the
                   approved outside activities involved some type of compensation.


                   VULNERABILITIES
                   Limited information submitted by employees inhibits NIH’s ability to
                   effectively review outside activity requests
                   o 	 Thirty-two percent of the approved outside activity requests were
                       missing at least 1 required piece of information: reviewing
                       officials’ signatures were missing from 67, the unnumbered
                       supplemental form was missing or incomplete for 19, and the
                       NIH-2657 form was missing or incomplete for 34. Both the
                       supplemental form and the NIH-2657 form provide NIH with
                       additional information regarding the nature of the activity; this



 OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                    ii
E X E C U T I V E               S U          M M A R Y


                       information is critical in determining whether an activity should
                       be approved.
                   o 	 Twenty-two percent of the outside activities were not disclosed as
                       required by regulations on annual financial disclosure forms.
                   o 	 Ten of the sixty-three consulting activities contained a copy of the
                       consulting contract and 54 percent of all the activities contained a
                       letter of invitation. Although NIH requires neither, consulting
                       contracts and letters of invitation can provide important
                       information on the nature of an outside activity.
                   o 	 Position descriptions and job billets that employees provided were
                       too general to demonstrate that employees’ official duties would
                       not overlap with proposed outside activities.
                   Inadequacies in the review process inhibit NIH’s ability to effectively
                   review outside activity requests
                   o 	 Twenty-eight percent of outside activity requests were approved
                       after the scheduled start dates for those activities, which violates
                       HHS regulations.
                   o 	 Written recusals were present for 19 percent of the activities.
                       Recusals disqualify employees from general or particular matters
                       in their official duties so that conflicts of interest are avoided. All
                       employees who engage in outside activities are required to recuse
                       themselves from official duty matters that may create actual or
                       apparent conflicts of interest; however, recusals are not
                       necessarily required in writing. Written recusals are important
                       because they inform supervisors and co-workers of potential
                       conflicts of interest and increase awareness among employees.
                   o 	 Nine institutes do not routinely notify employees’ supervisors of
                       final decisions on requests, and four others notify supervisors only
                       of disapproved requests.
                   o 	 Six institutes do not follow up on ongoing outside activities to
                       determine whether the nature and time commitment associated
                       with activities have changed. NIH policy regarding the frequency
                       and the nature of followup of ongoing activities is unclear.
                   o 	 Ethics work is a collateral duty for about three-quarters of the
                       ethics officials at NIH, which means it may be difficult for staff to
                       maintain ethics expertise.



 OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                      iii
E X E C U T I V E               S U          M M A R Y


                   o 	 Lack of training for supervisors and employees is a major
                       challenge. Although NIH trained all employees and provided
                       training specifically geared towards supervisors in 2004, there is
                       currently no requirement that supervisors attend regular training
                       in how to review outside activity requests, and there is no
                       requirement that all other employees attend regular training
                       sessions on outside activities.


                   RECOMMENDATIONS
                   HHS and NIH have already undertaken a variety of initiatives to
                   address inadequacies in the review and approval process for outside
                   activities. NIH has increased training and has centralized the review of
                   certain types of outside activity requests. Furthermore, in
                   February 2005, HHS issued an interim final rule that placed several
                   restrictions on the types of outside activities in which NIH employees
                   are allowed to participate. (For a complete list of HHS and NIH
                   initiatives, see Appendix C attached to the main body of this report.)
                   We offer the following recommendations to NIH.
                   Improve the quality and extent of information for outside activities
                   o 	 Require all employees to submit additional details on the nature
                       of their proposed outside activities and their current official
                       duties.
                   o 	 Ensure that employees fill out their outside activity requests
                       completely.
                   o 	 Ensure that institutes cross-check financial disclosure forms with
                       employees’ outside activities records for the previous year.
                   Address the inadequacies in the review process for outside
                   activities
                   o 	 Ensure that institutes approve outside activities before their
                       scheduled start dates.
                   o 	 Require recusals, if needed, to be made in writing and
                       disseminated to immediate supervisors and other key personnel
                       for all outside activities that are related to employees’ official
                       duties.
                   o 	 Ensure that ethics officials notify supervisors of all approvals and
                       disapprovals.
                   o 	 Ensure annual followup of ongoing outside activities.

 OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                     iv
E X E C U T I V E               S U          M M A R Y


                   o 	 Enhance training related to outside activities.

                   o 	 Consider centralizing some or all aspects of the review process for
                       outside activities.


                   AGENCY COMMENTS
                   NIH concurred with our findings and recommendations. However, it
                   indicated a need for caution regarding written recusals for outside
                   activities in certain circumstances. Further, NIH noted that it has
                   already taken many steps to address the vulnerabilities identified in
                   this report, and has further initiatives planned. For NIH’s complete
                   comments, see page 24 of this report.


                   OIG RESPONSE
                   We appreciate NIH’s comments and the steps that NIH has taken and
                   has planned to address vulnerabilities in its review process for outside
                   activities.

                   In response to NIH’s concerns about recusals, we reiterate that written
                   recusals, when needed, are protective of employees who are
                   participating in outside activities because they allow for the
                   establishment of screening and gate-keeping practices that help to
                   ensure employees do not encounter conflicts between their official duties
                   and outside activities. Thereby, they can help prevent conflicts of
                   interest from arising. Recent guidance from the Office of Government
                   Ethics also suggests that recusals can help to prevent conflicts from
                   arising.




 OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                      v
Δ   T A B L E           O F             C O N T E N T S                                  




         EXECUTIVE SUMMARY ........................................                                                               i



         INTRODUCTION ................................................ 1



         NATURE OF OUTSIDE ACTIVITIES .......................... 8



         V U L N E R A B I L I T I E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 

                    Limited information on outside activities . . . . . . . . . . . . . . . . . . . 10 


                    Inadequacies in the review process . . . . . . . . . . . . . . . . . . . . . . . . 13 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 



         A G E N C Y C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 



         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36 

                    A: Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36 


                    B: The Nature of Outside Activities . . . . . . . . . . . . . . . . . . . . . . . 42 


                    C: HHS and NIH Initiatives Related to Outside Activities . . . . . 54 


                    D: Recommendations from the Office of Government Ethics . . . . 56 


                    E: Recommendations from the NIH Blue Ribbon Panel . . . . . . . . 58 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63

Δ   I N T R O D U C T I O N                                



                  OBJECTIVES
                  1. 	To describe the nature of outside activities for which senior-level
                      National Institutes of Health (NIH) employees received approval
                      between 2001 and 2003.

                  2. 	To determine the extent to which senior-level NIH employees
                      provided key information on their outside activity forms and
                      supporting documentation between 2001 and 2003.

                  3. 	To assess NIH’s process for reviewing outside activity requests
                      between 2001 and 2003.


                  BACKGROUND
                  Federal employees hold positions of public trust and are accountable for
                  the responsible use of public funds. As such, the public expects Federal
                  employees’ actions and decisions to demonstrate integrity and
                  objectivity. Therefore, pursuant to congressional mandate, the Office of
                  Government Ethics (OGE) has put into place an ethics program that
                  addresses a broad array of topics, including employees’ outside
                  activities. Each department in the executive branch is responsible for
                  implementing its ethics program.

                  In general, employees of the Department of Health and Human Services
                  (HHS) are allowed to work or interact privately with non-Federal
                  entities on their personal time through outside activities, which in some
                  cases require prior approval. Examples of outside activities include
                  consulting, teaching, speaking, and writing related to employees’ official
                  duties. These activities must not conflict with employees’ official duties,
                  and may or may not involve financial compensation.

                  Outside activities are not necessarily related to employees’ professions,
                  but some outside activities provide scientists at NIH with opportunities
                  to work with industry, academia, hospitals, and nonprofit foundations to
                  help translate important scientific and biomedical research into
                  practice. Outside activities can also be sources of professional
                  gratification by allowing NIH scientists to build and maintain their
                  professional expertise. Further, the compensation from outside
                  activities may help NIH attract and retain staff.

                  However, outside activities may create actual or apparent conflicts of
                  interest for employees. Pursuant to 18 U.S.C. § 208(a), an actual
                  conflict of interest arises when an employee personally and

OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                      1
I N T R O D        U C T      I O N


                    substantially participates, in an official capacity, in a particular matter
                    in which he or she has a personal or imputed financial interest, if the
                    matter will otherwise have a “direct and predictable effect” on that
                    interest. Additionally, pursuant to 5 CFR § 2635.502, the appearance of
                    a loss of impartiality arises when an employee participates in an official
                    capacity in a matter in which he or she has certain defined associations
                    or interests that would “cause a reasonable person […] to question his
                    impartiality in the matter.”
                    Recent concerns regarding outside activities
                    In December 2003, an investigative report in the Los Angeles Times
                    raised concerns about NIH’s ethics program.1 The article alleged that
                    certain approved outside activities (i.e., consulting arrangements) for
                    several employees at NIH had created serious conflicts of interest that
                    may have biased agency decisions.2 The article also raised questions
                    about the lack of public disclosure regarding the compensation that
                    scientists received for these outside activities.

                    In response to these allegations, several internal and external groups
                    have launched reviews of both the overall system for reviewing outside
                    activity requests at NIH and the questionable outside activities in
                    which NIH employees participated. The following is a summary of
                    those reviews:
                    o 	 NIH is in the process of reviewing all compensated outside
                        activities involving consulting with pharmaceutical and
                        biotechnology companies in which employees participated between
                        1999 and 2003 to ensure that they met pertinent requirements.
                    o 	 Several hearings by the Senate Appropriations Committee and
                        the House Energy and Commerce Committee’s Subcommittee on
                        Oversight and Investigations examined consulting arrangements
                        that NIH employees maintained with pharmaceutical and
                        biotechnology companies.
                    o 	 A blue ribbon panel of outside advisors convened by NIH
                        evaluated the agency’s policies for outside activities.
                    o 	 A routine program review by OGE assessed the procedures and
                        administrative systems in place for outside activities at four NIH
                        institutes.
                    Requirements for outside activities at NIH
                    Office of Government Ethics. OGE was established in the Ethics in
                    Government Act of 1978 to oversee ethics programs at all executive

 OEI-01-04-00150    OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                     2
I N T R O D        U C T      I O N


                    branch agencies. In October 1992, OGE promulgated governmentwide
                    Standards of Ethical Conduct for Employees of the Executive Branch,
                    which became effective on February 3, 1993, and include Subpart H on
                    outside activities.3 OGE regulations require employees to comply with
                    18 U.S.C. § 209, which prohibits employees from accepting outside
                    compensation for work conducted in an official capacity. OGE
                    regulations also prohibit employees from engaging in outside activities,
                    both compensated and uncompensated, that would conflict with those
                    employees’ official duties to such a degree that they would have to be
                    disqualified from performing essential parts of their jobs. Further,
                    employees are required to endeavor to avoid actions that would create
                    the appearance of violating the standards of ethical conduct.4
                    Department of Health and Human Services. Agencies may impose, with
                    OGE concurrence, additional limitations on outside activities. In 1996,
                    HHS promulgated the Supplemental Standards of Ethical Conduct,
                    which provide additional ethics rules.5 During the period covered by our
                    review, these supplemental regulations prohibited all HHS employees
                    from engaging in any compensated employment regarding HHS-funded
                    activities, or providing consultative or professional services for
                    compensation in preparing grant applications, contract proposals, and
                    certain other documents for submission to HHS. In addition, the
                    regulations required, and continue to require, employees to request and
                    receive prior written approval from their supervisors and ethics officials
                    for certain outside activities. The types of activities that trigger the
                    prior approval requirement include: (1) providing consultative or
                    professional services; (2) teaching, speaking, writing, or editing that
                    relates to official duties or results from contact with certain sources; or
                    (3) serving on certain boards or advisory bodies.6
                    In February 2005, HHS issued an interim final rule that revised the
                    Supplemental Standards of Ethical Conduct and placed additional
                    restrictions on the types of outside activities in which NIH employees
                    are allowed to participate.7
                    At the time of this review, regulation stipulated that outside activities
                    shall be approved unless they violate a statutory or regulatory
                    requirement.8
                    National Institutes of Health. In its NIH Manual, NIH maintains
                    policies and procedures for outside activities that elaborate on HHS and
                    OGE regulations.9 The NIH Manual reiterates and clarifies the basic
                    rules for outside activities as stated in OGE regulations and HHS

 OEI-01-04-00150    OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                    3
I N T R O D        U C T      I O N


                    supplemental regulations. The NIH Manual stipulates that outside
                    activities may draw on employees’ general scientific or professional
                    expertise and may be compensated, but they may not be conducted on
                    Government time or using Government resources, and they may not be
                    related to any matter that an employee has been assigned as an official
                    duty in the past 12 months.10
                    Outside activity approval process at NIH
                    NIH takes a decentralized approach to implementing and overseeing its
                    ethics program. It has 27 institutes and centers, as well as a central
                    Office of the Director, Office of Research Facilities, and Office of
                    Research Services (all hereafter referred to as institutes). Each
                    institute has its own Deputy Ethics Counselor (DEC), and sometimes
                    additional ethics staff, who oversee its ethics program. Among their
                    ethics duties, the DECs ensure that institute employees abide by NIH’s
                    requirements for outside activities and answer employees’ questions
                    regarding ethics. Typically, DECs are the Deputy Directors or executive
                    officers of their institutes, so they have other job responsibilities in
                    addition to ethics. The DEC for the Office of the Director also serves as
                    the head NIH DEC and the Deputy Director of NIH.

                    While the process for approving an outside activity in every institute
                    reflects the policies delineated in the NIH Manual, institutes may
                    develop their own procedures for executing those policies so long as
                    those procedures do not contradict HHS, OGE, or NIH policies or rules.
                    Outside Activity Requests. In general, the official process for approval
                    begins when an employee submits a Request for Approval of Outside
                    Activity (HHS-520) and, often, one or more NIH supplements to his or
                    her supervisor. Each of these forms collects information on particular
                    aspects of a proposed outside activity and is used in determining
                    whether an outside activity may pose a conflict of interest.
                    o 	 The   HHS-520 is required for all outside activity requests. It
                        collects information on the employee’s position, the nature of the
                        outside activity, the length of time over which the outside activity
                        will be performed, and the method of compensation. As of
                        January 2004, the amount of compensation must also be
                        disclosed.11
                    o 	 The NIH Unnumbered Supplemental Information Form to
                        Accompany the HHS-520 is required for all compensated outside
                        activities.12 It documents the employee’s official duties, how the
                        outside activity does or does not relate to those official duties, and

 OEI-01-04-00150    OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                     4
I N T R O D        U C T      I O N


                        the nature of the relationship, if any, between the organization
                        sponsoring the outside activity and NIH.
                    o 	 The   Supplemental Information to the HHS-520 Form (NIH-2657)
                        is required for outside activities involving consulting and private
                        clinical and legal practice. It contractually binds the employee to
                        avoid certain situations that could create an actual or apparent
                        conflict of interest.

                    The employee’s supervisor reviews these forms and makes a
                    recommendation to the appropriate DEC about whether an activity
                    should be approved. The DEC then reviews these forms and makes a
                    final decision about whether to approve the outside activity request. At
                    this point, the need for any recusals would be determined. A recusal
                    disqualifies an employee from a general or particular matter in his or
                    her official capacity to avoid a conflict of interest. It is a protective
                    measure that aims to ensure that employees do not face conflicts of
                    interest.
                    Annual Financial Disclosure. Certain executive branch employees,
                    including some NIH employees, must also disclose their compensated
                    outside activities through an annual financial disclosure form. By
                    statute, officials for whom the minimum base pay in their pay band is
                    equal to or greater than 120 percent of the minimum rate of base pay for
                    the GS-15, and certain other designated officials such as presidential
                    appointees and members of the uniformed services above a certain pay
                    grade, must file the annual public financial disclosure, the Standard
                    Form (SF)-278, with their DECs.13 The SF-278 captures all outside
                    sources of assets worth at least $1,000, income, and liabilities along
                    with the financial value for each source; compensated outside activities
                    for which the income is greater than $200; and certain compensated and
                    uncompensated positions.

                    Other employees who do not file the SF-278 but who hold positions of
                    significant decisionmaking authority as determined by NIH in
                    conjunction with OGE are required to file the annual confidential
                    financial disclosure form, the OGE-450, with their DECs. The OGE-450
                    captures certain outside sources of assets worth at least $1,000, income,
                    and liabilities–including compensated outside activities above $200–but
                    does not require the disclosure of the financial value from any source.
                    This form requires the disclosure of certain compensated and
                    uncompensated positions.



 OEI-01-04-00150    OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                      5
I N T R O D        U C T      I O N


                    Employees who do not meet the criteria for filing the SF-278 or the
                    OGE-450 do not file any annual financial disclosure forms.


                    METHODOLOGY
                    Our review is based on three data sources: (1) a file review,
                    (2) interviews, and (3) a procedure review. (For a complete description
                    of our methodology, see Appendix A.) We conducted this review prior to
                    February 2005, when HHS issued an interim final rule that placed
                    several new restrictions on the types of outside activities in which NIH
                    employees are allowed to participate.

                    For our file review, we conducted a retrospective review of all outside
                    activity requests that senior-level employees submitted to NIH ethics
                    officials between January 1, 2001, and December 31, 2003. We defined
                    senior-level employees to be those employees who were required to file
                    SF-278 public disclosure forms as of February 2004. NIH provided us
                    with a list of 176 employees who met that criterion. We excluded from
                    our review the Director of NIH and the Director of the National Cancer
                    Institute, both of whom are presidential appointees and are therefore
                    overseen by ethics officials outside of NIH. Therefore, our final
                    population was 174 employees. The population of senior-level
                    employees included, but was not limited to: (1) institute directors,
                    (2) institute deputy directors, (3) institute scientific directors, and
                    (4) institute clinical directors.

                    Our file review included three methodologies: (1) a descriptive review,
                    (2) a completeness review, and (3) a compliance review.14 For the
                    descriptive review, we tallied the number and nature of the outside
                    activity requests overall and conducted trend analyses of the approved
                    activities. One limitation of this review is that it may have been subject
                    to underreporting, as we did not assess whether employees conducted
                    any additional outside activities between 2001 and 2003 that were not
                    reported to NIH in outside activity requests. For the completeness
                    review, we calculated the extent to which the required documentation
                    was filled out completely and correctly.

                    For the compliance review, two analysts, and when necessary a third,
                    independently assessed each approved outside activity using a set
                    protocol and documented whether the activity appeared to be allowable
                    under existing requirements. A limitation of this review is that we
                    made our assessments based solely on the documentation provided by



 OEI-01-04-00150    OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                   6
I N T R O D        U C T      I O N


                    NIH and did not follow up with employees or ethics officials for further
                    details on the outside activities.

                    For our interviews, we interviewed the DECs, and any ethics staff they
                    chose to include, at all institutes. We used a structured questionnaire
                    to conduct the interviews. The questionnaire addressed topics such as
                    the institutes’ procedures for reviewing outside activity requests and
                    challenges that ethics officials experience in reviewing outside activity
                    requests.

                    Finally, we requested operating procedures related to outside activities
                    from all institutes. We assessed the nature of these documents and
                    identified common themes and best practices.

                    We conducted this inspection in accordance with the “Quality Standards
                    for Inspections” issued by the President’s Council on Integrity and
                    Efficiency.




 OEI-01-04-00150    OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                   7
Δ    N A T U R E               O F             O U T S I D E              A C T I V I T I E S 


                   In this section we provide a summary of the number and types of
                   outside activities in which NIH senior-level employees participated
                   between 2001 and 2003. We conducted this review prior to February
                   2005, when HHS issued an interim final rule that placed several new
                   restrictions on the types of outside activities in which NIH employees
                   are allowed to participate. For more information see Appendix B.

Forty percent of senior-level NIH employees
 received approval for 319 outside activities
                     between 2001 and 2003

                   Senior-level employees received approval for 90 percent of the outside
                   activity requests they submitted
                   o 	 Of the 174 senior-level employees at NIH, 78 requested approval
                       for 355 outside activities between 2001 and 2003. NIH approved
                       319 of these outside activity requests for 69 senior-level
                       employees. It is not surprising that most activities were
                       approved. At the time of our review, departmental supplemental
                       regulations required that outside activity requests be approved
                       unless they violated statute or regulation.15
                   Most senior-level employees participated in 1 or 2 approved outside
                   activities, but a few participated in more than 20
                   o 	 Fifty-seven percent (39) of the sixty-nine senior-level employees
                       participated in only one or two approved outside activities
                       between 2001 and 2003.
                   o 	 Eight senior-level employees participated in 10 or more approved
                       outside activities during this 3-year period, and 3 senior-level
                       employees participated in 20 or more approved outside activities.
                   Senior-level intramural employees accounted for 76 percent of the approved
                   outside activities
                   o 	 Intramural employees coordinate and conduct research within
                       their institutes at NIH, whereas extramural employees
                       administer grants and contracts with outside entities.
                   Senior-level employees at three institutes accounted for 52 percent of the
                   approved activities
                   o 	 Senior-level employees at the National Institute of Mental Health
                       participated in 77 approved outside activities between 2001 and
                       2003. Senior-level employees at the National Human Genome
                       Research Institute participated in 45 approved outside activities,


 OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                     8
   N A T U R E          O F         O U T S I D                 E      A C T I V I T I E S


                           and senior-level employees at the National Heart, Lung and Blood
                           Institute participated in 44 approved outside activities.

About half of these activities involved teaching or
         consulting and most were compensated

                       Fifty-three percent of the approved outside activities involved teaching or
                       consulting, commonly with universities and pharmaceutical companies,
                       respectively
                       o 	 Thirty-three percent (105) of the approved activities were for
                           teaching/lecturing. Forty-four percent (46) of these teaching/
                           lecturing activities were with universities. It is important that
                           NIH review activities with universities carefully as NIH funds
                           scientific research at universities, and certain outside activities
                           may inappropriately influence the employee’s or the agency’s
                           decisions with respect to future funding decisions. Extramural
                           employees, who administer grants and contracts with universities,
                           may pose greater risks for conflicts of interest if they engage in
                           outside activities with universities and other potential grantees.
                       o 	 Twenty percent (63) of the approved activities were for consulting.
                           Forty-nine percent (31) of these consulting arrangements were
                           with pharmaceutical or biotechnology companies. It is vital that
                           NIH review activities with these companies carefully to ensure
                           that they are not receiving inappropriate access to Government
                           data and that the employee’s and the agency’s decisions are not
                           influenced by industry.
                       Eighty-eight percent of the approved outside activities involved some type
                       of compensation
                       o 	 For those activities for which the information was available,
                           senior-level employees reported earning on average $869 in
                           expenses, $1,500 in honoraria, and $2,000 in fees, per activity.
                           Honoraria and fees ranged from $150 to $18,000 and $500 to
                           $30,000, respectively, per activity.16 For those activities for which
                           the information was available, no relationship appeared to exist
                           between the amount of time an employee spent on an outside
                           activity and the amount of compensation he or she received for
                           that activity.
                       o 	 Fifty-seven percent of approved activities involved some amount of
                           time off and 7 percent required a week or more of time off.



     OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                    9
V U L N E R A B I L I T I E S
Δ    V U L N E R A B I L I T I E S 


 Limited information submitted by employees
     inhibits NIH’s ability to effectively review
                      outside activity requests

                   Of the 319 approved outside activities, 101 were missing at least 1 required
                   piece of information in the documentation
                   Of the 101 activities that were missing information, 82 percent were
                   missing 1 item of information, 15 percent were missing 2 items, and
                   3 percent were missing 3 items.

                   Foremost among the missing items were signatures on the HHS-520,
                   which is the main outside activity request form and is required for all
                   employees submitting requests. Of the 319 approved outside activities,
                   67 were missing a signature by the reviewing official. The reviewing
                   official, typically the employee’s supervisor, is responsible for verifying
                   that a proposed outside activity does not overlap with the employee’s
                   official duties and recommending to the ethics official whether a request
                   should be approved. One approved outside activity request lacked an
                   employee signature testifying that the information provided on the
                   HHS-520 was true and complete, and one approved outside activity
                   request lacked a signature of the final approving official.

                   For 19 of the 279 approved outside activity requests that required
                   unnumbered supplemental forms, the forms were either missing or
                   incomplete. The unnumbered supplemental form is the NIH form that
                   is required for all compensated activities. These missing and
                   incomplete forms are of particular concern as this form solicits details
                   about an employee’s official duties, the proposed outside activity, and
                   the difference between the two. It is essential for ethics officials to have
                   this information in determining whether proposed outside activities
                   could create real or apparent conflicts of interest.

                   NIH requires employees to attach position descriptions or job billets
                   along with unnumbered supplemental forms. Of the 279 approved
                   requests that required unnumbered supplemental forms, 66 percent
                   lacked position descriptions or job billets.

                   It is also of concern that NIH does not require unnumbered
                   supplemental forms and position descriptions for all outside activity
                   requests, regardless of compensation amount.17 These documents
                   provide information that is relevant to determining whether or not
                   activities should be allowed.


 OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                    10
V U L N E R A B I L I T I E S


                   Furthermore, for 34 of the 205 approved outside activity requests that
                   required NIH-2657 forms, the forms were either missing or incomplete.
                   The NIH-2657 is the supplemental form that, in certain situations,
                   contractually binds employees who participate in consulting activities or
                   private clinical or legal practice to avoid real or apparent conflicts of
                   interest.
                   Even when the forms were complete, they often provided limited information
                   Because of the limited information provided on the forms, ethics officials
                   must routinely follow up with employees for additional details or
                   clarification, which consumes valuable staff time. Ethics officials at
                   22 institutes commented that they always or often follow up with
                   employees for additional information as they review outside activity
                   requests. Ethics officials indicated that the most common reason for
                   followup with employees is to obtain more information on the difference
                   between an outside activity and an employee’s official duties.

                   NIH does not require certain additional documents that could be useful
                   for reviewers. For example, NIH does not require employees to submit
                   letters of invitation or any descriptions of the outside activities from
                   outside entities, although 12 institutes require letters of invitation in
                   their written procedures for outside activities. Fifty-four percent (172)
                   of approved outside activity requests contained letters of invitation.

                   Furthermore, NIH does not require ethics officials to collect or review
                   copies of contracts for consulting activities. Ten of the sixty-three
                   consulting activities had copies of the contracts, with the terms and
                   conditions of the activity, on file. Previously, NIH counsel would
                   occasionally review contracts for outside activities. However, they no
                   longer do so because such reviews may have led to NIH lawyers
                   providing legal advice to Government employees in their private
                   capacities. Currently, NIH requires employees who are participating in
                   outside activities to insert a standard clause in all contracts so that
                   outside employers recognize that Federal employees must adhere to
                   certain laws and standards of ethical conduct.18
                   In addition, the position descriptions and job billets that employees
                   provided were typically too general to demonstrate that employees’
                   official duties would not overlap with proposed outside activities.
                   Position descriptions do not commonly list employees’ current research
                   projects and affiliations.

                   In our compliance review, our reviewers found that information on
                   outside activities was limited in 81 percent of the approved outside

 OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                   11
V U L N E R A B I L I T I E S


                   activities. This limitation included insufficient detail regarding the
                   nature of the outside activities, the nature of employees’ official job
                   duties, the differences between the outside activities and their official
                   job duties, the outside organizations, and any NIH funding or
                   partnerships with the outside organizations. For example, in describing
                   the differences between their official duties and proposed outside
                   activities, employees provided vague responses such as, “The activity is
                   not appropriate as an official duty.”

                   To address these concerns, the HHS Designated Agency Ethics Official
                   (DAEO) has reminded ethics officials throughout the Department of the
                   importance of performing due diligence when reviewing ethics forms.19
                   The DAEO has authority, delegated from the Secretary, to oversee the
                   HHS ethics program.
                   Twenty-two percent of the approved outside activities were not disclosed as
                   required on annual financial disclosure forms
                   Employees who file the annual public financial disclosure form (SF-278)
                   must disclose all sources of income over $200, certain outside positions,
                   and all reimbursement for travel expenses greater than $260. All
                   disclosures on the SF-278 must include the amount of compensation, if
                   applicable. Senior-level employees who were public filers did not
                   disclose 20 of the 95 approved outside activities that required disclosure
                   on their SF-278 forms in 2001 or 2002. In addition, senior-level
                   employees did not disclose 22 of the 93 approved outside activities that
                   required disclosure in 2003; however, NIH had not completed its final
                   review and authorization of the 2003 SF-278 forms at the time of our
                   review, and some of the deficiencies for 2003 may have been later
                   identified and corrected by ethics officials.20
                   Employees who file the confidential financial disclosure form (OGE-450)
                   must disclose all sources of income over $200, certain outside positions,
                   and reimbursement for travel expenses greater than $285. However,
                   confidential filers are not required to report the amount of
                   compensation in all cases. Senior-level employees who filed the
                   confidential financial disclosure at any point during the period of our
                   review did not disclose 30 of the 141 approved outside activities that
                   required disclosure on the OGE-450.21 At the time of our review, NIH
                   had already completed its final review and authorization of the
                   OGE-450 forms for 2003.




 OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                 12
V U L N E R A B I L I T I E S                              




           Inadequacies in the review process
       inhibit NIH’s ability to effectively review
                       outside activity requests

                   Approvals after the start date
                   Twenty-eight percent of outside activity requests were approved after
                   the start dates provided on the request forms. HHS regulations
                   mandate that outside activities must be approved in advance.22 A
                   recent OGE review of outside activities at NIH also found a significant
                   number of late approvals: in its sample of 155 approved activities at
                   4 institutes, 25 percent were approved after their scheduled start
                   dates.23
                   In our review, some approvals after the scheduled start dates were due
                   to late submissions. For 40 percent of the late approvals, employees
                   submitted their outside activity requests after the activities had begun.
                   Late approvals may also occur if ethics officials need to follow up with
                   employees for additional information on requests. Ethics officials noted
                   that followup can add weeks to the time it takes to review requests.24
                   Fifteen institutes set specific deadlines for the submission of outside
                   activity requests in their procedures. Eleven institutes require requests
                   to be submitted at least 6 weeks prior to start dates; the remaining
                   institutes have shorter deadlines or call for “reasonable advance.”
                   Limited use of written recusals for outside activities
                   Written recusals specific to outside entities were present for 19 percent
                   of the approved activities. Pursuant to the prohibitions of the Federal
                   conflict of interest statute (18 U.S.C. § 208) and OGE regulations, all
                   employees who participate in outside activities are obligated to recuse
                   themselves, in other words disqualify themselves, from any official duty
                   matters that may create an actual conflict of interest or an appearance
                   of loss of impartiality in the performance of official duties.25 However,
                   ethics officials generally leave recusals to employees to carry out.
                   Recent OGE guidance suggests that recusals can help to prevent
                   conflicts of interest from arising.26
                   It is unclear what NIH’s expectations with regard to written recusals
                   are. The NIH Manual continues to call for written recusals in all
                   cases.27 However, NIH officials have indicated that recusals are not
                   necessarily required in writing. All employees participating in outside
                   activities receive two forms, the “Notice to Applicants for Prior Approval
                   of Outside Activities” and the “Excerpts from the Standards of Ethical

 OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                 13
V U L N E R A B I L I T I E S


                   Conduct for Employees of the Executive Branch and the Department of
                   Health and Human Services Supplemental Agency Ethics Regulations,”
                   which mention the expectation that employees must recuse themselves,
                   but do not include further details.

                   Although ethics officials at 28 of the 30 institutes indicated that when
                   they require recusals they require them in writing, ethics officials at
                   only 8 of these institutes indicated that they always or often require
                   recusals for outside activities. Only four institutes mention the need for
                   recusals in their written procedures. Written recusals are important
                   because they inform supervisors and coworkers of potentials for conflicts
                   of interest and thereby help to prevent those conflicts from arising.

                   Ethics officials at five institutes indicated that they have no
                   mechanisms for determining whether or not recusals are being
                   observed, and ethics officials at other institutes rely on oversight by
                   supervisors, verbal reminders, and the annual review of financial
                   disclosure statements to ensure that employees are observing recusals.
                   Inadequate notification of supervisors
                   Nine institutes do not routinely notify employees’ supervisors of final
                   decisions on requests, and four others notify supervisors only of
                   disapproved requests. Although employees’ supervisors are required to
                   review and sign off on outside activity requests before sending them to
                   the appropriate DECs, they are frequently not aware of the final
                   approval decisions made by the DECs. When supervisors are unaware
                   of ongoing outside activities, they may not be able to monitor employees’
                   assignments to avoid conflicts of interest. However, NIH ethics staff
                   commented that supervisors typically assume that all outside activity
                   requests are approved unless they hear otherwise.
                   Inadequate followup of ongoing outside activities
                   Six institutes do not follow up on ongoing outside activities to determine
                   whether the nature and time commitments of activities are in line with
                   the specifications of the requests, or whether ethics rules are being
                   observed. Although ethics officials at 22 institutes stated that they
                   perform varying levels of followup, ethics officials at only 14 institutes
                   said that they review outside activities annually.28 Six institutes
                   mention the importance of annual review for ongoing activities in their
                   written procedures.29
                   It used to be that NIH required employees to annually submit the
                   HHS-521 form, which collects updated information on ongoing outside
                   activities, for all ongoing activities. The requirement for followup still

 OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                    14
V U L N E R A B I L I T I E S


                   exists in the NIH manual.30 At the time of this report, filing of the
                   HHS-521 was no longer required. However, the February 2005 interim
                   final rule stipulates that employees who engage in outside activities
                   must file annual reports on their activities.31
                   OGE also found that followup of outside activities was problematic.
                   None of the four institutes it examined appeared to be conducting
                   followup consistently.32 OGE found examples of institutes following up
                   only once, at sporadic intervals over the course of a multiyear activity,
                   or not at all.
                   Varying levels of staffing and training
                   Ethics work is a collateral duty for about three-quarters of institute
                   ethics officials, and only two institutes have full-time DECs. The DECs
                   report spending 27 percent of their time on ethics issues, on average,
                   and other key ethics staff reported spending an average of 59 percent of
                   their time on ethics issues.

                   Ethics officials at 14 institutes cited staffing as a major or moderate
                   challenge. Although it may be efficient for ethics staff to perform their
                   ethics function as a collateral duty, this arrangement may make it
                   difficult for ethics officials to cultivate the set of skills and experience
                   necessary for handling outside activities, especially at smaller institutes
                   that receive fewer requests. In addition, when ethics offices are
                   understaffed, ethics officials may have less time to train employees.

                   Ethics officials at 18 institutes reported providing no training on outside
                   activities specifically geared toward supervisors. Currently, there is no
                   requirement for supervisor training that addresses the review of outside
                   activities. However, in 2004 NIH distributed to supervisors a
                   memorandum that provided guidance on reviewing outside activities.33
                   Training supervisors is crucial to ensuring that they understand their
                   role in the outside activity approval process and vet requests
                   adequately. Ethics officials at 12 institutes noted that insufficient
                   training of supervisors posed a major or moderate challenge in the
                   outside activity approval process, and 1 official said that supervisors are
                   currently “flying blind” with regard to their outside activities duties.

                   Moreover, ethics officials at 11 institutes noted that insufficient training
                   for employees posed a major or moderate challenge in the outside
                   activity approval process. Currently, there is no requirement for annual
                   ethics training for all employees. Annual ethics training is required for
                   employees who file financial disclosure reports, as well as for other


 OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                   15
V U L N E R A B I L I T I E S


                   employees designated by institute directors or DECs.34 This training is
                   generally done through a computer-based module and includes one
                   section on outside activities and official duties. Face-to-face training
                   typically happens once every 3 years, although several ethics officials
                   noted opportunities for informal face-to-face training exist whenever
                   they answer employees’ questions. NIH required all employees to
                   attend face-to-face training in 2004, but there is no requirement for
                   annual training.
                   These vulnerabilities may have led to possible violations of ethics rules
                   We conducted this review prior to February 2005, when HHS issued an
                   interim final rule that placed several new restrictions on the types of
                   outside activities in which NIH employees are allowed to participate.
                   Our review, therefore, only addresses activities that may have been
                   inappropriate under the previous version of the regulations. The new
                   regulations impose substantially greater restrictions on the types of
                   activities that are appropriate for NIH employees.

                   Determining whether any outside activity adhered to the regulations
                   involved a judgment call on our part. To minimize subjectivity,
                   two reviewers independently reviewed each outside activity. A final
                   reviewer was consulted to resolve cases in which the two initial
                   reviewers disagreed.

                   Our review included all available NIH documentation regarding these
                   activities. However, these documents do not necessarily include all the
                   facts known to or considered by the NIH ethics reviewers at the time of
                   their reviews. Ethics officials indicated to us that they often do
                   additional research to get information about proposed activities.

                   In no instance was the documentation we reviewed adequate for us to
                   make a definitive determination regarding whether an activity was
                   appropriate. As demonstrated above, the information contained in the
                   documentation for outside activity requests is often inadequate to make
                   determinations. Therefore, we cannot state with absolute certainty that
                   any activity was or was not allowable. Instead, we made one of three
                   determinations for each activity: (1) appears to be allowable,
                   (2) appears not to be allowable, and (3) cannot determine.

                   In cases for which the documentation did not suggest any violation of
                   the regulations, our reviewers identified activities as “appears to be
                   allowable,” even if more information would be necessary to definitively
                   determine that they were in fact allowable. Our reviewers only
                   identified an activity as “appears not to be allowable” if the

 OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                  16
V U L N E R A B I L I T I E S


                   documentation suggested a violation of the regulations. Finally, our
                   reviewers identified activities as “cannot be determined” when the
                   information available was so incomplete that they were unable to make
                   a determination, or when the information raised concerns that the
                   activity may have violated the regulations.

                   Ultimately, our reviewers could not determine the appropriateness of
                   eight activities, and they also determined that two of the activities
                   appeared to violate regulations. However, it is quite possible that, due
                   to the approach taken in this review, we have underestimated the
                   number of activities that should not have been approved. Inadequate
                   documentation for outside activities can, intentionally or
                   unintentionally, hide potential violations. If ethics officials conduct
                   additional research on requests, they may uncover and resolve those
                   potential problems before they become violations, but this may not
                   happen in every case.

                   Our reviewers were unable to make determinations on the
                   appropriateness of eight activities; it was unclear whether or not these
                   activities may have posed a variety of potential violations. In some
                   cases, it was unclear whether activities violated 5 CFR § 2635.802,
                   which prohibits employees from engaging in outside activities that
                   conflict with their official duties. Other activities appeared to
                   potentially violate various stipulations of the NIH Manual. In some
                   instances, it was unclear whether employees had received compensation
                   for outside activities that related to their official duties. In other cases,
                   it was unclear whether employees had used Government time or
                   facilities to conduct outside activities. In still other cases, it was
                   unclear whether employees had been properly recused from official
                   duties that may have related to their outside activities. NIH reviewed
                   these activities and determined that no violations had occurred.

                   The two outside activities that appeared not to be allowable may have
                   violated 5 CFR § 5501.106(c)(1) of the HHS supplemental standards,
                   which prohibits employees from providing consultative or professional
                   services for compensation to assist in the preparation of any grant
                   application intended for submission to HHS.35 We referred these two
                   cases to NIH for further review and copied the HHS DAEO. NIH
                   reviewed both of these outside activities and agreed that they appeared
                   to violate HHS supplemental regulations and therefore should not have
                   been approved. NIH also reported that the employees who performed
                   these activities had disclosed all relevant details to their DECs.36


 OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                    17
Δ   R E C O M M E N D A T I O N S                                        





                  HHS and NIH recognize the importance of reviewing outside activities
                  and have proposed several major changes to NIH’s process for reviewing
                  outside activities. (See Appendix C for a list of these initiatives.) Most
                  notably, in February 2005, HHS issued an interim final rule that
                  established new requirements for outside activities of NIH employees,
                  as well as of other Federal employees.37 The interim final rule
                  addresses many of the vulnerabilities identified in this report.

                  The changes made by HHS and NIH reflect a commitment to addressing
                  concerns regarding outside activities, and these changes appear to be
                  moving in the right direction. We encourage HHS and NIH to continue
                  their efforts to improve the NIH ethics program.

                  We offer the following recommendations to NIH on how to improve its
                  review process for outside activities. (For lists of recommendations
                  offered by OGE and the NIH blue ribbon panel, see Appendixes D
                  and E, respectively.)
                  Improve the quality and extent of information for outside activities
                  Require all employees to submit additional details on the nature of their
                  proposed outside activities and their current official duties.
                  Determining whether an outside activity is appropriate or whether it
                  conflicts or overlaps with an employee’s job duties depends on the
                  employee’s specific job duties and the nature of the outside activity. In
                  2005, HHS revised the HHS-520 to ensure that it provides substantive
                  information.38 We recommend that NIH amend its NIH Manual to
                  require that several additional pieces of information be submitted for all
                  outside activity requests. NIH should require:
                  o 	 Statements, written by employees, that carefully, accurately, and
                      substantively describe the work that will be performed for outside
                      entities, and also describe the differences between outside
                      activities and official duties. The interim final rule calls for
                      supervisors to prepare statements “. . . addressing the extent to
                      which the employee’s duties are related to the proposed outside
                      activity . . . .”39
                  o 	 Detailed descriptions of employees’ current job-related activities,
                      in addition to copies of their position descriptions, to accompany
                      all outside activity requests. Position descriptions are often vague
                      and lack information on specific research projects or organizations
                      that employees work with as part of their official duties. A list of

OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                   18
R 	E C O      M M E N D A T                  I O N     S


                       employees’ specific job duties would help reviewers in making
                       decisions about appropriateness. This information would be
                       especially valuable for ethics officials, who may not always be
                       fully aware of the scope of employees’ work. NIH has already
                       begun to supplement request packets with employees’ current
                       publications and performance plans. The interim final rule
                       requires employees to submit additional information about their
                       official duties and any relationships between their official duties
                       and outside activities.40
                   o 	 Written letters of invitation to accompany all requests for
                       approval. These letters can provide important information on the
                       sponsoring organization, the location of the activity, and the
                       nature of the activity.
                   o 	 All consulting contracts and other confidentiality agreements to
                       be submitted with outside activity requests, when applicable.
                       These agreements can provide important information on the
                       nature of proposed activities. We recognize that Government
                       lawyers cannot provide personal legal advice to employees who
                       are requesting approval for outside activities. Therefore, we
                       recommend that these contracts be used as tools to provide
                       additional information on the type and scope of work in which
                       employees will be engaging with outside entities. If reviewers
                       find that contract terms violate regulation or policy, activities
                       should be disapproved. However, Government lawyers should not
                       negotiate contract terms on behalf of NIH employees.
                   Ensure that employees fill out their outside activity requests
                   completely. We found that not only were required forms incomplete, but
                   also answers were sometimes too vague to be meaningful. To assist
                   employees in filling out these forms properly, NIH could develop a
                   standardized checklist for employees to ensure that all proper
                   documentation is submitted. This type of checklist would serve as an
                   aid in filling out and gathering forms and would help to verify that all
                   appropriate forms and questions are completed. The checklist’s use
                   should be limited to ensuring that forms are administratively complete;
                   it should not be used to determine the appropriateness of any activity.
                   Ensure that institutes cross-check financial disclosure forms with
                   employees’ outside activities records for the previous year. We found that
                   outside activities were not always properly disclosed, as required by OGE
                   regulations, on the applicable financial statements.41 Ensuring disclosure

 OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                      19
R   E C O        M M E N D A T                  I O N     S


                      on these forms promotes transparency in employees’ outside affiliations
                      and earnings and makes the employees publicly accountable for avoiding
                      real or apparent conflicts of interest. NIH should make this requirement
                      more explicit in its NIH Manual.
                      Address the inadequacies in the review process for outside activities
                      Currently, institutes have differing procedures for reviewing outside
                      activity requests. The following recommendations serve to address the
                      variation that currently exists across institutes in the review process for
                      outside activity requests.
                      Ensure that institutes approve outside activities before their scheduled
                      start dates. HHS and OGE regulations, as well as the NIH Manual,
                      require that all approvals occur prior to outside activities’ scheduled
                      start dates.42 However, we found that some outside activities are being
                      approved after the start dates provided on request forms. NIH should
                      reemphasize its expectation that institutes comply with these
                      regulations and policies and ensure that institutes are in compliance.

                      It is important for all institutes to continue to collect information when
                      employees come forward to disclose outside activities after the fact, as
                      doing so provides a record of employees’ noncompliance and the nature
                      of activities conducted. However, this does not mean that activities
                      should necessarily be approved when they are disclosed after they have
                      begun. In fact, if ethics officials discover that completed outside
                      activities are inappropriate, the DEC and/or supervisor should take
                      appropriate disciplinary action (e.g., counseling, verbal or written
                      reprimands, requiring the employee to return any compensation,
                      prohibiting participation in future outside activities, and, in the most
                      extreme circumstances, removing the employee).
                      To help ensure that reviewers have adequate time to review requests
                      prior to their start dates, NIH should consider amending its NIH
                      Manual to establish an appropriate timeframe for the submission of
                      requests for outside activities. This timeframe should allow adequate
                      time for supervisors and ethics officials to conduct their reviews and
                      follow up with the employees, if necessary, for clarification. We
                      recognize that such a timeline may not always be feasible, but we
                      encourage NIH to use deadlines whenever possible.
                      Require recusals, if needed, to be made in writing and disseminated to
                      immediate supervisors and other key personnel for all outside activities
                      that are related to employees’ official duties. Regulations do not require
                      recusals to be in writing, although NIH policy appears to require

    OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                  20
R   E C O        M M E N D A T                  I O N     S


                      written recusals.43 Recusals are protective of employees who participate
                      in outside activities, as they allow for the establishment of screening
                      and gate-keeping practices that help to ensure that employees do not
                      encounter conflicts between their official duties and outside activities.44
                      Having recusals in writing is important because recusals inform
                      supervisors and subordinates of disqualifications and their scopes.
                      Recusals also serve as points of accountability. Supervisors who are
                      aware of recusals can work to ensure that employees meet their recusal
                      obligations. NIH’s blue ribbon panel recommended that written
                      recusals be submitted to immediate supervisors.45
                      We recognize that if recusals are very widely disseminated, there are
                      implications for employee privacy. However, at the very least,
                      employees’ immediate supervisors should be aware of any recusals.
                      Supervisors can serve as gatekeepers who ensure that information
                      implicated in employees’ recusals does not reach them.
                      Ensure that ethics officials notify supervisors of all approvals and
                      disapprovals. We found that supervisors were not always notified of the
                      final decisions on outside activity requests, especially for activities that
                      were approved. It is important for the integrity of the process that all
                      relevant parties are informed of final decisions, regardless of outcome.
                      Supervisors can play an important role in ensuring that their
                      employees’ work continues to remain free of conflicts, even after
                      activities are approved, as job duties change over time. NIH has
                      already issued a training memorandum for supervisors and has added
                      the ethics function to the performance plans of all supervisors.46
                      Ensure annual followup of ongoing outside activities. We found that not
                      all institutes are conducting annual followup of ongoing outside
                      activities. Following up on continuing outside activities is important
                      because over time job duties and the nature of outside activities can
                      change and new conflicts can arise. We recommend that NIH
                      reestablish the expectation, already set forth in the NIH Manual, that
                      information on continuing activities be collected on an annual basis.

                      The NIH blue ribbon panel also recommended annual followup of
                      ongoing outside activities.47 OGE recommended that NIH either
                      improve its procedures for collecting updated information or eliminate
                      the requirement altogether.48 The interim final rule calls for employees
                      to submit annual reports on any ongoing outside activities.49
                      Enhance training related to outside activities. Existing OGE
                      regulations and the NIH Manual require annual ethics training for

    OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                    21
R   E C O        M M E N D A T                  I O N     S


                      those employees who file financial disclosure forms, but not for all
                      employees.50 We recommend that NIH require all employees,
                      regardless of whether they file financial disclosure forms, to attend
                      annual ethics training that covers outside activities. NIH has taken an
                      important first step by providing ethics training to all of its employees
                      in 2004, and we encourage NIH to continue this into the future.

                      NIH’s blue ribbon panel also recommended that NIH enhance its
                      training program. It recommended that NIH disseminate user-friendly
                      documents to explain ethics rules in straightforward language. It also
                      recommended that NIH issue regular agency-side reports on anonymous
                      case studies and general issues related to outside activities to help
                      foster a common understanding of the ethics rules.51
                      NIH should require all supervisors to receive training on how to review
                      outside activity requests. Ethics officials commented that a lack of
                      training for supervisors posed a significant challenge. Supervisors play
                      a critical role in the review process, and therefore they should know how
                      to conduct these reviews effectively. NIH has already taken important
                      first steps toward holding supervisors more accountable by adding their
                      ethics functions to their performance plans and by issuing a
                      memorandum to supervisors that elaborated on how to review outside
                      activity requests. Ethics training for supervisors could be accomplished
                      by modifying existing Web-based training modules or videos.

                      NIH’s blue ribbon panel called for additional training for supervisors,
                      but not specifically regarding the review of outside activities.52
                      Consider centralizing some or all aspects of the review process for
                      outside activities. NIH is in part moving in this direction with the
                      implementation of its NIH Ethics Advisory Committee (NEAC), a group
                      comprised of senior employees from across NIH that reviews certain
                      outside activity requests.53 NIH could centralize several facets of the
                      process for outside activities, including:
                      o   Standardized criteria and procedures;

                      o   Training for ethics officials, supervisors, and employees;

                      o   Audits of prior outside activity request reviews; and
                      o   Decisionmaking regarding the approval of outside activities.

                      We recognize that institutes vary in size and mission and that taking
                      steps toward centralization may be challenging to implement.
                      Centralization may involve removing ethics officials from the

    OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                   22
R   E C O        M M E N D A T                  I O N     S


                      institutes. Ethics officials at several institutes told us that by being
                      easily accessible to employees, they are able to better monitor
                      employees’ outside activities. Furthermore, the mere presence of
                      ethics offices in the institutes serves as a reminder to employees that
                      ethics play an important role in the day-to-day business of NIH.

                      However, centralization could also offer several important
                      advantages. First and foremost, it would allow NIH to develop a
                      cadre of full-time ethics officials who, over time, could develop
                      expertise in all ethics matters, including the review of outside
                      activities. Currently, many ethics officials perform ethics functions as
                      a collateral duty. Centralization could help ensure the independence
                      of the decisionmaking process, since ethics officials would be more
                      removed from the employees in the institutes. No longer would ethics
                      officials be making decisions regarding their immediate colleagues.


                      AGENCY COMMENTS
                      NIH concurred with our findings and recommendations. However, it
                      indicated a need for caution regarding written recusals for outside
                      activities in certain circumstances. Further, NIH noted that it has
                      already taken many steps to address the vulnerabilities identified in
                      this report and has further initiatives planned.


                      OIG RESPONSE
                      We appreciate NIH’s comments and the steps that NIH has taken and
                      has planned to address vulnerabilities in its review process for outside
                      activities.

                      In response to NIH’s concerns about recusals, we reiterate that written
                      recusals, when needed, are protective of employees who are
                      participating in outside activities because they allow for the
                      establishment of screening and gate-keeping practices that help to
                      ensure employees do not encounter conflicts between their official duties
                      and outside activities. Thereby, they can help prevent conflicts of
                      interest from arising. Recent OGE guidance also suggests that recusals
                      can help to prevent conflicts from arising.54
                      Finally, based on the revised HHS-520 form released by HHS in April
                      2005, we made minor edits to our recommendation concerning the
                      quality and extent of information that NIH collects for outside activities.



    OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                   23
Δ   A G E N C Y               C O M M E N T S                            





OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES       24
A G   E N     C Y     C O      M M E N T                S 





 OEI-01-04-00150    OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES   25
A G   E N     C Y     C O      M M E N T                S 





 OEI-01-04-00150    OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES   26
A G   E N     C Y     C O      M M E N T                S 





 OEI-01-04-00150    OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES   27
A G   E N     C Y     C O      M M E N T                S 





 OEI-01-04-00150    OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES   28
A G   E N     C Y     C O      M M E N T                S 





 OEI-01-04-00150    OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES   29
Δ   E N D         N O T E S                    





                  1	   Wilman, D. December 7, 2003. Stealth Merger: Drug Companies and
                       Government Medical Research. The Los Angeles Times: A1, A32-33.

                  2	   Of the six employees mentioned in the Los Angeles Time article on
                       December 7, 2003, only one was included in our review.

                  3	   5 CFR Part 2635.

                  4	   5 CFR § 2635.801(c).

                  5	   5 CFR Part 5501.

                  6	   5 CFR § 5501.106(c). These requirements remain the same in the
                       February 2005 interim final rule.

                  7	   70 Fed. Reg. 5,543, Feb. 3, 2005.

                  8	   5 CFR § 5501.106(d)(4). At the time this review was conducted, the
                       regulation stipulated that: “Approval shall be granted unless it is
                       determined that the outside employment or other outside activity is
                       expected to involve conduct prohibited by statute or Federal
                       regulation . . . .” In the February 2005 interim final rule, the standard
                       of approval is higher: “Approval shall be granted only upon a
                       determination that the outside employment or other outside activity is
                       not expected to involve conduct prohibited by statute or Federal
                       regulation . . . .” [emphasis added].

                  9	   NIH Manual 2300-735-4–Outside Work and Related Activities with
                       Outside Organizations, release date February 17, 1998.

                  10   NIH Manual 2300-735-4–Outside Work and Related Activities with
                       Outside Organizations, release date February 17, 1998, pp. 7-8.

                  11   Department of Health & Human Services memorandum to Deputy
                       Ethics Counselors and Ethics Contacts, January 27, 2004.

                  12   NIH Manual 2300-735-4–Outside Work and Related Activities with
                       Outside Organizations, release date February 17, 1998.




OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                         30
                  13   5 CFR § 2634.202.

                  14   We first determined that 319 of the 355 outside activities in our
                       population had been approved by NIH. All remaining analysis was
                       performed on the 319 approved activities.

                  15   5 CFR § 5501.106(d)(4). At the time this review was conducted, the
                       regulation stipulated that: “Approval shall be granted unless it is
                       determined that the outside employment or other outside activity is
                       expected to involve conduct prohibited by statute or Federal
                       regulation . . . .” In the February 2005 interim final rule, the standard
                       of approval is higher: “Approval shall be granted only upon a
                       determination that the outside employment or other outside activity is
                       not expected to involve conduct prohibited by statute or Federal
                       regulation . . . .” [emphasis added].

                  16   Prior to January 2004, employees were not required to report the
                       amount of compensation on the HHS-520. Therefore, when possible, we
                       obtained this information from annual public disclosure forms (for
                       those employees required to file the SF-278) and from employees who
                       voluntarily disclosed the amount of compensation on their HHS-520 or
                       supporting documentation. We only obtained information from the
                       SF-278 when the employee reported the exact amount of compensation,
                       rather than a range.

                       In January 2004, HHS required compensation information for all
                       activities to be provided on the HHS-520 form. Department of Health
                       & Human Services memorandum to Deputy Ethics Counselors and
                       Ethics Contacts, January 27, 2004.

                       Furthermore, the interim final rule calls for disclosure of compensation
                       information for all outside activity requests. 5 CFR § 5501.106(d)(3)(ii).

                  17   Forty approved outside activity requests for senior-level employees
                       between 2001 and 2003 did not require unnumbered supplemental
                       forms.

                  18   The required statement reads: “Notwithstanding any other provisions
                       of this agreement, the rights of Consultant’s employer, the National
                       Institutes of Health (NIH), shall not be abrogated by any commitment




OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                         31
                       or obligation Consultant has incurred hereunder. Company recognizes 

                       that as a Federal employee, Consultant is bound by Federal laws, 

                       regulations and policies, including those governing conflicts of interest, 

                       standards of conduct, and intellectual property, including      

                       45 C.F.R. Part 7.” 


                  19   “Performing ‘due diligence’ that is appropriate to the circumstances
                       should be a standard operating procedure. Conduct Internet searches,
                       make phone calls to the entities involved, talk to the employees, elicit
                       responses from them . . . .” Department of Health & Human Services
                       memorandum to Deputy Ethics Counselors and Ethics Contacts,
                       August 13, 2004, p. 1.

                  20   Although senior-level employees submitted outside activity requests for
                       319 outside activities during our timeframe, only 290 of those activities
                       actually had start dates between January 1, 2001, and
                       December 31, 2003, which would require disclosure on the SF-278 or
                       OGE-450 for those years. However, we reported that 188 outside
                       activities should have been disclosed on the SF-278 forms in those
                       3 years and 141 outside activities should have been disclosed on the
                       OGE-450 forms; this adds up to 329 outside activities. The explanation
                       for the excess is that the 329 outside activities include 43 activities that
                       senior-level employees reported on both the SF-278 and OGE-450 in a
                       given year (typically because a change in their employment status or
                       the equal classification determination required that they switch from
                       confidential filer to public filer within the course of a year) and that
                       were therefore double-counted. The 329 figure also does not account for
                       4 outside activities for which employees were not required to file either
                       the SF-278 or the OGE-450 in the year in which they performed the
                       outside activity (because their employment status was not in one of the
                       categories that required filing an annual disclosure form).

                  21   Many of the senior-level employees who were required to file the
                       SF-278 as of February 2004 had been required to file the OGE-450 at
                       some point between 2001 and 2003.

                  22   5 CFR § 5501.106(d). This expectation remains the same in the
                       February 2005 interim final rule.




OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                          32
                  23   U.S. Office of Government Ethics, memorandum to the Director of NIH,
                       July 26, 2004, p. 9.

                  24   On average, it took ethics staff 17 calendar days from the time senior-
                       level employees submitted their outside activity requests to final
                       approval. Senior-level employees submitted 14 outside activity
                       requests 17 days or less prior to the start of the activity between
                       2001 and 2003.

                  25   5 CFR § 2635, Subpart D (for conflicting financial interests) and
                       5 CFR § 2635, Subpart E (for appearances of a loss of impartiality).
                       The exception to the recusal obligation is when an employee is granted
                       a waiver or authorization.

                  26   U.S. Office of Government Ethics memorandum to Designated Agency
                       Ethics Officials, General Counsels and Inspectors General,
                       June 1, 2004, p. 1.

                  27   The NIH Manual states that “. . . [a] disqualified employee [should
                       sign] a written statement reflecting the scope of the disqualification
                       and the precise nature of the conflicting interest or activity. The
                       disqualification should also identify the individual who will deal with
                       the matters from which the employee is disqualified.” NIH Manual
                       2300-275-1–Avoiding Conflicts of Interest, release date June 19, 1998,
                       p. 15.

                  28   The other eight institutes indicated that they rely on annual financial
                       disclosure reports to verify whether activities are ongoing or have
                       ended, but not all employees are required to file annual disclosures,
                       and those who do file may not always disclose their outside activities.

                  29   One of these six also provides specific instructions about the tracking
                       system that the institute uses to monitor ongoing activities and the
                       timeframe for the annual review.

                  30   NIH Manual 2300-735-4–Outside Work and Related Activities with
                       Outside Organizations, release date February 17, 1998, p. 11.

                  31   5 CFR § 5502.102.




OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                           33
                  32   U.S. Office of Government Ethics memorandum to the Director of NIH,
                       July 26, 2004, p. 9.

                  33   National Institutes of Health memorandum to Supervisors,
                       April 12, 2004.

                  34   5 CFR § 2638.704(a) for public filers; 5 CFR § 2638.705(a)(3) for
                       confidential filers.

                  35   This prohibition remains the same in the February 2005 interim final
                       rule.

                  36   At the time of NIH’s review, both of these employees were retired from
                       Federal service.

                  37   70 Fed. Reg. 5,543, Feb. 3, 2005.

                  38   Department of Health & Human Services memorandum to the Acting
                       Director of OGE, October 22, 2004.

                  39   5 CFR § 5501.106(d)(3).

                  40   5 CFR § 5501.106(d)(3).

                  41   5 CFR Part 2634.

                  42   5 CFR § 2635.803; 5 CFR § 5501.106(d); NIH Manual 2300-735-4–
                       Outside Work and Related Activities with Outside Organizations,
                       release date February 17, 1998, p. 10. The requirement for prior
                       approval remains in the February 2005 interim final rule.

                  43   NIH Manual 2300-275-1–Avoiding Conflicts of Interest, release date
                       June 19, 1998, p. 15.

                  44   U.S. Office of Government Ethics memorandum to Designated Agency
                       Ethics Officials, General Counsels and Inspectors General,
                       June 1, 2004, pp. 1-2.

                  45   Blue Ribbon Panel Report on Conflict of Interest Policies, Report of the
                       National Institutes of Health, June 22, 2004, p. 66.




OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                       34
                  46   National Institutes of Health, Department of Health & Human
                       Services memorandum to Desginated Agency Ethics Office,
                       October 22, 2004, and National Institutes of Health, Department of
                       Health & Human Services memorandum to Supervisors,
                       February 16, 2004.

                  47   Blue Ribbon Panel Report on Conflict of Interest Policies, Report of the
                       National Institutes of Health, June 22, 2004, p. 62.

                  48   U.S. Office of Government Ethics memorandum to the Director of NIH,
                       July 26, 2004, p. 19.

                  49   5 CFR § 5502.102 and 5 CFR § 5502.103.

                  50   5 CFR § 2638 Subpart G, February 14, 2000, and NIH Manual
                       2300-735-1, p. 20.

                  51   Blue Ribbon Panel Report on Conflict of Interest Policies, Report of the
                       National Institutes of Health, June 22, 2004, p. 67.

                  52   Blue Ribbon Panel Report on Conflict of Interest Policies, Report of the
                       National Institutes of Health, June 22, 2004, p. 65.

                  53   In its recent report, OGE also raised concerns regarding the
                       appropriateness of NEAC since it is not comprised of ethics officials.
                       OGE recommended that the HHS DAEO establish a set of clear
                       guidelines to help NEAC determine if an activity is allowable, and that
                       the NEAC not have final approving authority over outside activity
                       requests. U.S. Office of Government Ethics memorandum to the
                       Director of NIH, July 26, 2004, p. 11.

                  54   U.S. Office of Government Ethics memorandum to Designated Agency
                       Ethics Officials, General Counsels and Inspectors General,
                       June 1, 2004, p. 1.




OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                       35
Δ   A P P E N D I X                     ~        A       



                  METHODOLOGY
                  We conducted this review prior to February 2005, when HHS issued an
                  interim final rule that placed several new restrictions on the types of
                  outside activities in which NIH employees are allowed to participate.
                  File reviews
                  We conducted a retrospective review of all outside activity requests that
                  senior-level employees submitted to NIH ethics officials between
                  January 1, 2001, and December 31, 2003. We defined senior-level
                  employees to be those employees who were required to file SF-278
                  public financial disclosure forms as of February 2004. NIH provided us
                  with a list of 176 employees who met that criterion. This group of
                  employees included, but was not limited to: (1) institute directors,
                  (2) institute deputy directors, (3) institute scientific directors, and
                  (4) institute clinical directors. We excluded from our review the
                  Director of NIH and the Director of the National Cancer Institute, both
                  of whom are presidential appointees and as such are overseen by ethics
                  officials outside of NIH. Therefore, our final population was
                  174 employees.

                  We focused our review on senior-level employees because these
                  employees may be most likely to engage in outside activities that
                  involve substantial influence and compensation, and therefore they may
                  pose the greatest risk for NIH in terms of potential conflicts of interest.
                  However, restricting our review to employees in this group presents
                  some limitations. During 2004, while this review was taking place, NIH
                  designated over 600 additional employees as public financial disclosure
                  filers to create consistency across NIH in terms of the categories of
                  positions that require public financial disclosure. Additionally, it may
                  be the case that employees who do not hold senior-level positions are
                  more likely to engage in high-risk, high-compensation outside activities.

                  We requested outside activity request forms (HHS-520s) and supporting
                  documentation for all outside activities performed by these
                  174 senior-level employees during the timeframe of our review.
                  Supporting documentation that we received included:
                  o 	 NIH Unnumbered Supplemental Information Forms to
                      Accompany the HHS-520;
                  o 	 Supplemental Information to the HHS-520 Forms (NIH-2657);

                  o 	 Written waivers, authorizations, and recusals;


OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                  36
A   P   P E N D       I X      ~       A


                      o     Public Financial Disclosure Reports (SF-278);
                      o     Confidential Financial Disclosure Reports (OGE-450);

                      o     Correspondence;

                      o     Reviewer notes;

                      o     Position descriptions;

                      o     Letters of invitation;

                      o     Consulting contracts; and

                      o     Confidentiality agreements.

                      We received 355 outside activity requests from NIH. We considered
                      requests to be within the timeframe of our review if the dates on which
                      employees signed the requests fell between January 1, 2001, and
                      December 31, 2003. Employees’ signature dates served as proxies, as
                      the dates on which forms were submitted were typically not documented
                      in the files. We did not assess whether employees conducted any
                      additional outside activities between 2001 and 2003 that were not
                      reported in the requests we reviewed, which represents a potential
                      limitation of our review. However, the responsibility for submitting
                      outside activity requests rests with employees.

                      Our review included initial requests, revised requests, and renewed
                      requests. An initial request occurs when an employee submits an
                      HHS-520 for the first time for a particular activity. A revised request
                      would be submitted if an employee had to change information on an
                      initial request. A renewed request is submitted if an activity continues
                      beyond the end date originally specified in the initial request. Our
                      population of approved outside activities included 249 initial requests,
                      53 renewals, 6 revised requests, and 11 outside activity requests for
                      which request types were not specified.

                      Because we intended to analyze all outside activity requests submitted
                      between 2001 and 2003, we needed to include all types of requests.
                      However, we may have double-counted some activities if they were
                      approved as initial requests and later resubmitted and approved as
                      revised or renewed requests. At most, we estimate that we may have
                      counted 17 outside activities in our population more than once because
                      employees may have submitted 1 or more renewals for already approved
                      activities between 2001 and 2003. Based on the documentation we
                      received from NIH, we cannot verify whether these 17 outside activity


    OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                 37
A   P   P E N D       I X      ~       A


                      requests are actual duplicates. However, none of the revised requests
                      appeared to match with initial requests in our timeframe.

                      Our file review included three methodologies: (1) a descriptive review,
                      (2) a completeness review, and (3) a compliance review.
                      Descriptive review. For each outside activity request in our timeframe,
                      we extracted the details of the outside activity from the HHS-520 and
                      supporting documents into a database. If the amount of compensation
                      for the activity was listed on the HHS-520, the applicable financial
                      disclosure form, or any other documentation in the file, we recorded
                      that. Finally, we noted any additional documentation that the employee
                      submitted as part of the outside activity request.

                      After entering the data into a Microsoft® Access® database, we verified
                      the data accuracy for a random sample of 10 percent of the 355 outside
                      activity requests in the database. Because we identified data entry
                      errors regarding the start and end dates of outside activities and the
                      types of compensation received for activities, we subsequently reviewed
                      the accuracy of those data fields for all records in our database.

                      We tallied the number and nature of outside activities overall, as well
                      as by year, activity type, compensation type, institute, employee type,
                      and time commitment.1 (When employees provided estimated ranges
                      for time commitments, we used the midpoints in our analysis.) We
                      performed our analyses using SAS® version 8.0 (a statistical software
                      package).
                      Completeness review. We calculated the extent to which forms were
                      filled out completely and correctly. For each outside activity request in
                      our timeframe, we documented in our database the dates on which the
                      employee, reviewing official, and final approving official signed off on
                      the outside activity request. We also recorded whether the employee
                      had completed the unnumbered supplemental form and the NIH-2657,
                      if applicable, and whether the employee had listed the outside activity
                      on his or her financial disclosure form (SF-278 or OGE-450) for that
                      year.

                      We counted the number of missing signatures, missing or incomplete
                      supplemental forms, and missing outside activity disclosures on annual
                      disclosure forms.

                      1	 We first determined that 319 of the 355 outside activities in our population had been
                        approved by NIH. All remaining analysis was performed on the 319 approved activities.



    OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                                       38
A   P   P E N D       I X      ~       A


                      Compliance review. We reviewed all approved outside activity requests
                      that senior-level employees submitted between January 1, 2001, and
                      December 31, 2003, to determine whether activities complied with the
                      pertinent requirements for avoiding conflict of interest.

                      We used the following statutes, regulations, and policies as our criteria:
                      o 	 Federal ethics laws regarding conflict of interest (18 U.S.C. § 205,
                            18 U.S.C. § 208, and 18 U.S.C. § 209),
                      o 	 Governmentwide Standards of Ethical Conduct for Employees of
                            the Executive Branch (codified in 5 CFR § 2635),
                      o 	 HHS Supplemental Standards of Ethical Conduct (codified in
                            5 CFR § 5501), and
                      o 	 NIH Manual chapter on Outside Work and Related Activities with
                            Outside Organizations (section 2300-735-4).

                      It is important to note that these criteria do not explicitly prohibit
                      certain types of outside activities (e.g., consulting arrangements).
                      Therefore, determining whether an outside activity adhered to the
                      regulations involved a judgment call on our part. In order to minimize
                      subjectivity, two reviewers used a standardized protocol to
                      independently review each outside activity request and all supporting
                      documentation. A final reviewer was consulted to resolve cases in
                      which the two initial reviewers disagreed. A third reviewer was
                      required for 92 outside activities. In the cases where the two initial
                      reviewers agreed, no third reviewer was used.

                      Our review included all available NIH documentation regarding these
                      activities. However, these documents do not necessarily include all
                      facts known to or considered by NIH ethics reviewers at the time of
                      their reviews. Ethics officials indicated to us that they often perform
                      additional research to obtain information on proposed activities.

                      In no instance was the documentation we reviewed adequate for our
                      reviewers to make a definitive determination regarding the
                      appropriateness of any activity. As demonstrated in the Vulnerabilities
                      section of this report, the information contained in the documentation
                      for outside activity requests is often inadequate, which limits reviewers’
                      abilities to make determinations on the appropriateness of proposed
                      activities. Therefore, we could not state with absolute certainty that
                      any activity was or was not allowable. Instead, we made one of three



    OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                  39
A   P   P E N D       I X      ~       A


                      determinations for each activity: (1) appears to be allowable,
                      (2) appears not to be allowable, and (3) cannot determine.

                      In cases where the documentation contained enough information and
                      did not appear to violate any regulations, our reviewers identified it as
                      “appears to be allowable,” even if more information would have been
                      necessary to definitively determine that the activity was in fact
                      allowable. Our reviewers only identified an activity as “appears not to
                      be allowable” if the documentation indicated a violation of the
                      regulation. Finally, our reviewers identified activities as “cannot be
                      determined” when the available information was so incomplete that
                      they were unable to make a determination, or when the information
                      raised concerns that the activity may have violated the regulations.

                      Ultimately, our reviewers could not determine the appropriateness of
                      eight activities, and they determined that another two activities
                      appeared to have violated the regulations. However, it is quite possible
                      that, due to the approach taken in this review, we have underestimated
                      the number of activities that should not have been approved.
                      Inadequate documentation for outside activities can, intentionally or
                      unintentionally, hide potential violations. If ethics officials conduct
                      additional research on requests, they may uncover and resolve those
                      potential problems before they become violations, but this may not
                      happen in every case.

                      In general, we did not seek additional information beyond what was
                      provided in the files. For example, we did not speak with any employees
                      or ethics officials at NIH or research the outside organizations involved
                      in outside activities. As a result, an important limitation of this review
                      is that we cannot comment on whether NIH ethics officials considered
                      additional facts during their reviews of outside activity requests.

                      As part of our assessment, we recorded whether additional pieces of
                      information would have been helpful in making determinations. These
                      pieces of information included: (1) greater detail on the nature of an
                      outside activity, (2) greater detail on the nature of an employee’s job
                      duties, (3) greater detail regarding the difference between an outside
                      activity and an employee’s job duties, (4) greater detail on the outside
                      organization, and (5) whether the outside organization received or was
                      in the process of negotiating NIH funding.
                      Interviews with NIH ethics officials
                      We interviewed the DECs and ethics staff they chose to include at all
                      27 institutes, the Office of Director, the Office of Research Services, and

    OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                   40
A   P   P E N D       I X      ~       A


                      the Office of Research Facilities Development and Operations.
                      Additional staff included, but was not limited to, the ethics coordinator
                      for the institute, the executive officer for the institute, and management
                      analysts within the ethics office. Five institutes (Office of Research
                      Services, Office of Research Facilities, National Institute on Aging,
                      National Institute on Biomedical Imaging and Bioengineering, and
                      Center for Information Technology) share an ethics coordinator and
                      three of those (Office of Research Services, Office of Research Facilities,
                      and Center for Information Technology) share a DEC; we conducted
                      three interviews with these institutes, one with each of the DECs and
                      the ethics coordinator.

                      Prior to each interview, we provided ethics officials with a preinterview
                      questionnaire. This questionnaire captured the number of outside
                      activity requests their institutes reviewed in calendar years 2001, 2002,
                      and 2003, and the job duties of all ethics staff at their institutes.

                      We used a structured questionnaire to conduct the interviews. The
                      questionnaire addressed: (1) institutes’ procedures for reviewing
                      outside activity requests; (2) the training that institutes provide to
                      employees, supervisors, and ethics staff on outside activities;
                      (3) institutes’ approaches to enforcing ethics violations regarding
                      outside activities; (4) challenges institutes face in reviewing outside
                      activity requests; and (5) recommendations for improving the system for
                      outside activities. We conducted all interviews by telephone.

                      We also spoke with staff in the NIH Ethics Office to learn of initiatives
                      to improve the NIH process for outside activities that are planned or
                      under way. Staff in the NIH Ethics Office served as a resource for
                      clarifying our questions on NIH ethics policy throughout our review.
                      Institute procedure review
                      We requested operating procedures related to outside activities from all
                      27 institutes, the Office of Director, the Office of Research Services, and
                      the Office of Research Facilities Development and Operations. NIH
                      allows, but does not require, its institutes to develop written operating
                      procedures for implementing NIH policies on outside activities.
                      Nineteen institutes provided us with written procedures. These
                      included: (1) standard operating procedures, (2) checklists, (3) routing
                      slips, (4) Web site printouts, and (5) memoranda. We counted the
                      number of institutes that maintained these documents and compared
                      them to one another.



    OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                   41
Δ   A P P E N D I X                      ~        B         



                  NATURE OF OUTSIDE ACTIVITIES
                  We conducted this review prior to February 2005, when HHS issued an
                  interim final rule that placed several new restrictions on the types of
                  outside activities in which NIH employees are allowed to participate.
                  Forty percent of senior-level employees at NIH received approval for
                  319 outside activities between 2001 and 2003
                  Senior-level employees received approval for 90 percent of the outside
                  activity requests they submitted. Of the 174 senior-level employees at
                  NIH, 78 requested approval for 355 outside activities between 2001 and
                  2003. (See Table 1 below.) NIH approved 319 of these outside activity
                  requests for 69 senior-level employees.2 The remaining outside activity
                  requests were either disapproved, cancelled, conducted as part of the
                  employee’s official duties, or did not have a final action documented.




                   Table 1. NIH's Decisions Regarding Outside Activity Requests
                   Submitted by Senior-Level Employees, 2001 - 2003.

                                                                       Number of                   Percent of
                          Final Actions Taken
                                                                Outside Activity Requests   Outside Activity Requests


                   Approved                                                 319                         90

                   No Final Action Specified                                  19                          5

                   Cancelled                                                  12                          3

                   Conducted as Official Duty                                  3                          1

                   Disapproved                                                 2                          1

                   Totals                                                   355                        100
                   Source: Office of Inspector General analysis of NIH data, 2005.




                  2	 For the period covered by this review, HHS supplemental regulations called for outside
                    activity requests to be approved unless they clearly violated statute (5 CFR § 5501.106).
                    The interim final rule calls for a higher standard of approval, where activities are only to
                    be approved “. . . upon a determination that [activities are not] expected to involve
                    conduct prohibited by statute or Federal regulation . . . .” Further, NIH employees often
                    confer with ethics officials before formally submitting requests to ensure that their
                    proposals are approvable.



OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                                        42
A   P   P E N D       I X      ~       B


                      An approved outside activity is an activity for which both the requesting
                      employee’s supervisor and the institute’s DEC determined that it met
                      the pertinent requirements and did not pose a potential conflict of
                      interest. Approval allows the employee to conduct the activity.
                      No final action specified means that the DEC did not check the box on
                      the HHS-520 that indicated whether the outside activity was approved
                      or disapproved. Without a mark in that checkbox, we could not
                      determine the status of the outside activity request.

                      A cancelled outside activity is an activity that was approved and then
                      terminated before the end date designated on the outside activity
                      request form. From the documentation in the employees’ files we could
                      not generally determine the dates of cancellation or whether decisions
                      to cancel the activities were made by employees or ethics officials.

                      An activity was conducted as an official duty if, after being approved as
                      an outside activity, an employee’s supervisor or ethics official identified
                      overlap between the employee’s proposed outside activity and his or her
                      current job duties that could pose a potential conflict of interest. In
                      these cases, the employee converted the activity to an official duty.
                      When an employee conducts an activity as an official duty, NIH excuses
                      the employee from his or her job duties for the allotted time and covers
                      the costs of travel. In return, the employee conducts the work as an
                      NIH representative and receives no outside compensation.

                      Typically, when supervisors identify overlap between proposed outside
                      activities and employees’ official duties, they disapprove the requests
                      and ask employees to request permission to perform the activities in
                      their official capacities. However, this process was not followed in the
                      activities we reviewed that were conducted as official duties.

                      A disapproved activity is one that the DEC did not consider to be
                      allowable given the pertinent requirements. Between 2001 and 2003,
                      NIH disapproved only two outside activity requests for the senior-level
                      employees in our population. Both were disapproved because of overlap
                      between the activities and the employees’ official duties.

                      One disapproved request involved an employee who wished to give a
                      speech to a foreign audience on aspects of disease distribution in the
                      United States. The supervisor recommended approval for the activity,
                      but the DEC ultimately disapproved the request, writing on the
                      HHS-520: “After discussions with [the institute Deputy Director], we do
                      not feel that the lecture to be delivered can be separated from your


    OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                   43
A   P   P E N D       I X      ~       B


                      official role . . . .” The DEC recommended resubmission for approval as
                      an official duty.

                      The second disapproved request involved an employee who submitted a
                      renewal request to continue serving on a scientific advisory board of an
                      organization that raises funds and awards grants for scientific research.
                      Although the employee had received approval for the outside activity in
                      the past, the institute ethics official indicated that the activity appeared
                      closely related to the employee’s research area and suggested that it
                      instead be done as an official duty. The employee agreed to perform the
                      activity as an official duty.
                      The distribution of employee submissions was virtually constant across
                      the 3-year period. The number of employees who submitted 1 or more
                      outside activity requests that were approved was 39 in 2001, 40 in 2002,
                      and 41 in 2003.3
                      Most senior-level employees participated in 1 or 2 outside activities, but
                      a few participated in more than 20. Fifty-seven percent of the
                      sixty-nine senior-level employees participated in only one or
                      two approved outside activities between 2001 and 2003. (See Table 2 on
                      the following page.) However, 8 senior-level employees participated in
                      10 or more approved outside activities during this 3-year period, and
                      3 senior-level employees participated in 20 or more approved outside
                      activities. The maximum was 37 approved outside activities for
                      1 employee.




                      3	 If one were to sum up the 39 senior-level employees in 2001, 40 in 2002, and 41 in 2003,
                        the total would add up to more than the 69 senior-level employees who submitted outside
                        activity requests in that 3-year period. This is because senior-level employees may have
                        submitted outside activity requests in two or more of the years in that period, meaning
                        some employees are counted more than once. The distribution of approved outside
                        activities is also virtually constant across the 3-year period. The 39 senior-level
                        employees in 2001 accounted for 31 percent of all approved outside activities in our
                        timeframe. The 40 employees in 2002 accounted for 37 percent of the approved outside
                        activities in our timeframe. And the 41 employees in 2003 accounted for 32 percent of the
                        approved outside activities in our timeframe.



    OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                                      44
                       Table 2. Number of Approved Outside Activities for
                       Senior- Level NIH Employees , 2001 - 2003.

                                    Number of                             Number of                Percent of
                              Approved Activities                  Participating Employees   Participating Employees




                                     Totals
                      . Column does not sum to 100 due to rounding.
                      Source: Offce of Inspector General analysis of NIH data, 2005.




OEI. 01- 04- 00150   OUTSIDE ACTIVITIES OF SENIOR- LeVEL NIH EMPLOYEES
A   P   P E N D       I X        ~        B


                      Senior-level intramural employees accounted for 76 percent of the
                      approved outside activities. Intramural employees coordinate and
                      conduct research within their institutes at NIH. Intramural senior-
                      level employees comprise 39 percent of all senior-level employees at
                      NIH. However, they accounted for more than half of the senior-level
                      employees who received approval for outside activities between 2001
                      and 2003, and for more than three-quarters of the approved outside
                      activities during this time. (See Table 3 below.)




                       Table 3. Number of Approved Outside Activities for
                       Senior-Level NIH Employees, by Employee Type, 2001 - 2003.

                                                              Number of                       Percent of                  Number of
                            Employee Types
                                                          Approved Activities             Approved Activities             Employees


                       Intramural                                   243                               76                     40

                       Extramural                                    37                               12                     12

                       Other *                                       39                               12                     17

                       Totals                                       319                             100                      69
                       * Includes institute directors and deputy directors, who are neither intramural nor extramural.

                       Source: Office of Inspector General analysis of NIH data, 2005.





                      OGE noted in its recent NIH ethics program review that “. . . the
                      potential for conflicts among intramural researchers may be at least as
                      great, if not greater . . .” than for extramural employees.4 Extramural
                      employees oversee and provide technical support for NIH-funded
                      research at external institutions, which includes administering grants
                      and contracts with outside entities. OGE further noted:
                              Many of the very consulting activities that have become the subject of public
                              controversy have involved intramural researchers . . . Overall, it appears to us that
                              intramural researchers are more likely to have official duties that directly involve drug
                              companies–for example, cooperative research and development agreements or other
                              arrangements with a particular company’s products – than do extramural officials.




                      4 U.S. Office of Government Ethics memorandum to the Director of NIH, July 26, 2004,
                        p. 13.



    OEI-01-04-00150   OUTSIDE ACTIVITIES      OF   SENIOR-LEVEL NIH EMPLOYEES                                                46
A   P   P E N D       I X      ~       B


                      OGE cautioned NIH against imposing less restrictive limits on
                      intramural employees than extramural employees. However, these
                      two groups of employees have different functions, have little contact
                      within NIH, and may pose different kinds of risks in terms of conflicts of
                      interest. Extramural employees may be more likely to pose risks when
                      they engage in activities with universities and other potential or actual
                      grantees. Intramural employees may be more likely to pose risks when
                      they engage in activities where there is scientific overlap between their
                      official, Government-sponsored research and the work they are
                      performing for outside entities.
                      Senior-level employees at three institutes accounted for 52 percent of
                      the approved activities. Senior-level employees at the National
                      Institute of Mental Health participated in 77 approved outside activities
                      between 2001 and 2003. Senior-level employees at the National Human
                      Genome Research Institute participated in 45 approved outside
                      activities, and senior-level employees at the National Heart, Lung, and
                      Blood Institute participated in 44 approved outside activities.
                      (See Table 4 on the following page.)

                      The primary explanation for the volume of approved outside activities at
                      these three institutes seems to be that one employee at each institute
                      was engaging in many outside activities over the 3-year period, thereby
                      increasing the numbers for the institute as a whole. In addition,
                      demand may be particularly high for certain types of scientific expertise
                      in which these institutes specialize. Moreover, institutes with large
                      numbers of employees may be likely to receive more outside activity
                      requests than smaller institutes.5




                      5	 The National Institute of Mental Health and the National Heart, Lung, and Blood
                        Institute are two of the larger institutes at NIH.



    OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                                 47
A   P   P E N D               I X             ~         B          





             Table 4. Approved Outside Activities for Senior-Level NIH Employees, by Institute, 2001 - 2003.


                                                                                                                         Number of       Percent of
                                                                                              Number of    Percent of
                                                                                                                        Senior-Level    Senior-Level
                                                                                              Approved     Approved
                                                  Institutes                                                              Institute       Institute
                                                                                               Outside      Outside
                                                                                                                         Employees       Employees
                                                                                              Activities   Activities
                                                                                                                        Participating   Participating

             National Institute of Mental Health                                                  77          24              7              54

             National Human Genome Research Institute                                             45          14              4              80

             National Heart, Lung, and Blood Institute                                            44          14              9              56

             National Institute of Neurological Disorders and Stroke                              25            8             4              67

             NIH Clinical Center                                                                  16            5             4              67

             National Library of Medicine                                                         16            5             4              44

             National Institute on Drug Abuse                                                     15            5             3              43

             National Institute of Diabetes and Digestive and Kidney Diseases                     12            4             3              60

             National Cancer Institute                                                            10            3             4              31

             National Institute on Aging                                                           9            3             4              50

             National Institute of Child Health and Human Development                              9            3             5              71

             National Institute on Deafness and Other Communications Disorders                     9            3             3              60

             Center for Scientific Review                                                          5            2             2              40

             National Eye Institute                                                                4            1             2              25

             National Institute on Alcohol Abuse and Alcoholism                                    4            1             1              14

             National Institute of Allergy and Infectious Diseases                                 4            1             1              25

             National Institute of Environmental Health Sciences                                   4            1             3              60

             National Center for Complementary and Alternative Medicine                            3            1             1              50

             Office of the Director *                                                              3            1             2              12

             National Center on Minority Health and Health Disparities                             2            1             1              50

             National Institute of Arthritis and Musculoskeletal and Skin Diseases                 2            1             1              33

             National Institute of Dental and Craniofacial Research                                1          <1              1              17

             Center for Information Technology                                                     0            0             0               0

             Fogarty International Center                                                          0            0             0               0

             National Center for Research Resources                                                0            0             0               0

             National Institute of Biomedical Imaging and Bioengineering                           0            0             0               0

             National Institute of General Medical Sciences                                        0            0             0               0

             National Institute of Nursing Research                                                0            0             0               0

             Totals                                                                              319           **            69               -
             * Includes Office of Research Facilities and Office of Research Services.

             ** Column does not sum to 100 due to rounding.

             Source: Office of Inspector General analysis of NIH data, 2005.





    OEI-01-04-00150             OUTSIDE ACTIVITIES          OF   SENIOR-LEVEL NIH EMPLOYEES                                             48
A   P   P E N D       I X        ~        B


                      About half of these outside activities involved teaching or
                      consulting and most were compensated
                      Fifty-three percent of the approved outside activities involved teaching
                      or consulting. Thirty-three percent (105) of the approved activities were
                      for teaching/lecturing. (See Table 5 below.) Forty-four percent (46) of
                      these teaching/ lecturing activities were with universities. Of the
                      46 activities with universities, only 8 appeared to involve teaching
                      regular classes. It is important that NIH review activities with
                      universities carefully as NIH funds scientific research at these
                      universities and certain outside activities may inappropriately influence
                      the employee’s or the agency’s decisions with respect to future funding
                      decisions. Extramural employees who work with universities may pose
                      potential risks in terms of conflicts of interest because they may oversee
                      university funding decisions. Other common venues for lecturing were
                      hospitals (19 activities), industry (10 activities), professional societies
                      (13 activities), and continuing education courses (9 activities).




                       Table 5. Nature of Approved Outside Activities for
                       Senior-Level NIH Employees, 2001 - 2003.

                                                                       Number of Approved                         Percent of Approved
                         Types of Outside Activities
                                                                        Outside Activities                         Outside Activities


                       Teaching/Lecturing                                         105                                        33

                       Consulting                                                   63                                       20

                       Other *                                                      51                                       16

                       Speaking                                                     41                                       13

                       Serving on Advisory Boards **                                29                                         9

                       Writing/Editing                                              19                                         6

                       Clinical/Private Practice                                      6                                        2

                       Consulting with Law Firms                                      5                                        2

                       Totals                                                     319                                        ***
                       * Includes primary task forces, boards, and committees that were not scientific or consultory in nature.

                       ** In addition, seven consulting arrangements included advisory board memberships as part of the

                       approved activities.

                       *** Column does not sum to 100 due to rounding.

                       Source: Office of Inspector General analysis of NIH data, 2005.





    OEI-01-04-00150   OUTSIDE ACTIVITIES      OF   SENIOR-LEVEL NIH EMPLOYEES                                                      49
A   P   P E N D       I X      ~       B


                      Twenty percent (63) of the approved activities involved consulting.
                      (See Table 5 on the previous page.) Forty-nine percent (31) of these
                      consulting activities took place with pharmaceutical or biotechnology
                      companies. It is vital that NIH review activities with these companies
                      carefully to ensure that they are not receiving inappropriate access to
                      Government data and that the employee’s and the agency’s decisions
                      are not influenced by industry.

                      Moreover, NIH approved 29 additional outside activities in which
                      senior-level employees participated on scientific advisory boards, which
                      can be considered a type of consulting. Forty-eight percent of these
                      advisory board memberships were with pharmaceutical or biotechnology
                      companies.

                      The NIH Manual acknowledges that outside activities with
                      pharmaceutical or biotechnology companies pose special concerns.6 In
                      particular, if employees sign consulting agreements with these
                      companies that contain confidentiality clauses, information sharing may
                      be restricted in ways that interfere with employees’ official duties. For
                      example, confidentiality clauses that prevent consultants from engaging
                      with an outside entity’s competitors could inhibit future NIH research
                      partnerships or programs. In fact, the HHS Office of the General
                      Counsel has prepared a statement addressing this concern that
                      employees are required to include in all consulting agreements.7
                      Previously, Government lawyers occasionally reviewed contracts for
                      outside activities. However, they no longer do so because such reviews
                      may have led to Government lawyers providing legal advice to
                      Government employees in their private capacities. Currently, although
                      employees are not required to submit contracts with their activity
                      requests and NIH will not review them, some employees do submit
                      those contracts in order to provide additional information about their
                      activities. Nineteen approved consulting or advisory board activity
                      requests in our review included consulting arrangements. Thirteen of
                      those included confidentiality agreements.

                      6	 NIH Manual 2300-735-4–Outside Work and Related Activities with Outside

                        Organizations, release date February 16, 1998, Appendix 7, p. 2.
                      7	 The required statement reads, “Notwithstanding any other provisions of this agreement,

                        the rights of Consultant’s employer, the National Institutes of Health (NIH), shall not be
                        abrogated by any commitment or obligation Consultant has incurred hereunder.
                        Company recognizes that as a Federal employee, Consultant is bound by Federal laws,
                        regulations and policies, including those governing conflicts of interest, standards of
                        conduct, and intellectual property, including 45 C.F.R. Part 7.”



    OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                                      50
A   P   P E N D       I X         ~      B


                      Eighty-eight percent of the approved outside activities involved some
                      type of compensation. Employees must report on their HHS-520s the
                      types of compensation they plan to receive for outside activities.
                      Approved outside activities may involve one or more forms of
                      compensation; employees may also perform activities for no
                      compensation. The NIH Manual does not impose any limits on the
                      types or amounts of compensation that employees may receive.8




                       Table 6. Types of Compensation that Senior-Level NIH Employees
                       Received for Approved Outside Activities, When Reported, 2000 - 2003.

                                                                    Number of Approved                      Percent of Approved
                            Types of Compensation                    Activities Involving                    Activities Involving
                                                                          This Type                              This Type *

                       Expenses                                                202                                    63

                       Honoraria                                               176                                    55

                       Fees                                                     50                                    16

                       None                                                     37                                    12

                       Other **                                                 19                                     6

                       Per Diem Payments                                        13                                     4

                       Per Annum Payments                                         2                                    1

                       Royalties                                                  2                                    1
                       * Column sums to more than 100 because some outside activities involved more than 1 type of

                       compensation.

                       ** Includes a copy of a textbook, a subscription to a publication, and a cruise.

                       Source: Office of Inspector General analysis of NIH data, 2005.





                      Expenses and honoraria were the most common types of compensation
                      that senior-level employees reported. (See Table 6 above.) Sixty-three
                      percent of approved outside activities involved compensation for
                      expenses, and 55 percent received compensation in the form of
                      honoraria.

                      We obtained information on the exact amount of compensation for
                      134 approved outside activities. (See Table 7 on the following page.)

                      8	 NIH Manual 2300-735-4–Outside Work and Related Activities with Outside
                        Organizations, release date February 17, 1998, p. 7.



    OEI-01-04-00150   OUTSIDE ACTIVITIES     OF   SENIOR-LEVEL NIH EMPLOYEES                                               51
A   P   P E N D       I X        ~       B


                      For those 134 approved activities, senior-level employees reported
                      earning on average $869 in expenses, $1,500 in honoraria, and $2,000 in
                      fees, per activity. Honoraria and fees ranged from $150 to $18,000 and
                      $500 to $30,000, respectively, per activity.




                       Table 7. Amounts of Compensation that Senior-Level NIH Employees
                       Received for Approved Outside Activities, When Reported, 2000 - 2003.

                                                                       Number of
                                                                        Activities         Median         Range of
                              Types of Compensation                    Disclosing        Compensation   Compensation
                                                                      Compensation         Amount         Amounts
                                                                        Amount

                       Expenses                                              41             $    869    $ 125 - $ 3,000

                       Honoraria                                             97             $ 1,500     $ 150 - $ 18,000

                       Fees                                                  15             $ 2,000     $ 500 - $ 30,000

                       Per Annum Payments                                      1            $ 5,500           N/A

                       Per Diem Payments                                       0                N/A           N/A

                       Royalties                                               0                N/A           N/A
                       Source: Office of Inspector General analysis of NIH data, 2005.




                      For those activities where information was available, there did not
                      appear to be a relationship between the amount of time an employee
                      spent on an outside activity and the amount of compensation he or she
                      received for that activity.

                      Prior to January 2004, employees were not required to report the
                      amount of compensation on the HHS-520. Therefore, when possible, we
                      obtained this information from annual public disclosure forms (for those
                      employees required to file the SF-278) and from employees who
                      voluntarily disclosed the amount of compensation on their HHS-520s or
                      supporting documentation. We only obtained information from the
                      SF-278 when the employee reported the exact amount of compensation,
                      rather than a range.

                      This portion of our analysis is limited by the fact that compensation
                      amounts were self-reported by the employees. We did not
                      independently verify that employees received the same amounts and
                      types of compensation they disclosed on these forms.


    OEI-01-04-00150   OUTSIDE ACTIVITIES     OF   SENIOR-LEVEL NIH EMPLOYEES                                 52
A   P   P E N D       I X      ~       B


                      Fifty-seven percent of approved outside activities involved some amount
                      of time off and 7 percent required a week or more of time off. In order to
                      participate in outside activities, employees often take time off from
                      work. Those employees who reported taking time off reported that they
                      would take between 1 and 96 hours of time off per approved outside
                      activity. The median amount of time employees anticipated taking off
                      per approved outside activity was 8 hours (1 day).

                      Employees may also use personal time, or hours outside the normal
                      working day, to engage in outside activities. Overall time commitments
                      for approved outside activities including both time off from work and
                      personal time ranged from 1 to 300 hours. The median length per
                      approved outside activity was 12 hours. The NIH Manual does not
                      impose limits on the number of hours that employees spend on outside
                      activities, “except when time spent on outside activities interferes with
                      the performance of an employee’s official duties.”9 The employee’s
                      supervisor is typically responsible for making this assessment.

                      Employees may perform multiple outside activities simultaneously,
                      which can increase their overall time commitments to outside activities.
                      Between 2001 and 2003, senior-level employees who participated in
                      multiple approved outside activities documented spending anywhere
                      between 2 and 964 hours on their outside activities. To do so, they
                      reported taking a median of 34 hours (about 4 days) of time off. Four
                      senior-level employees took 1 month or more of time off to engage in
                      outside activities.




                      9	 NIH Manual 2300-735-4–Outside Work and Related Activities with Outside
                        Organizations, release date February 17, 1998, p. 8.



    OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                        53
A   P   P E N D       I X      ~       C
Δ       A P P E N D I X                     ~         C      



                      HHS & NIH INITIATIVES RELATED TO OUTSIDE ACTIVITIES
                      HHS and NIH have the following efforts to strengthen the NIH review
                      and approval process for outside activities planned or under way.
                      Interim Final Rule
                      HHS issued an interim final rule in February 2005 that provides new
                      restrictions on the types of outside activities in which NIH employees
                      can participate, and also imposes new responsibilities on employees
                      who participate in outside activities.10 The following are some of the
                      provisions of the interim final rule, relating to outside activities:
                      o 	 Employees must provide additional detailed information in their
                            outside activities requests. The revised HHS-520 form, released
                            in April 2005, captures significantly more information than the
                            previous version.
                      o 	 Employees must file annual reports on their outside activities.

                      o 	 Outside activities may only be approved for 1-year periods.

                      o 	 Employees are restricted from participating in certain activities
                            with several types of outside entities, including biotechnology and
                            pharmaceutical companies and research institutions supported by
                            NIH funds.
                      Enhanced Oversight
                      o 	 In November 2003, NIH established the NIH Ethics Advisory
                          Committee (NEAC) to provide recommendations with regard to
                          approval to the NIH DEC for all outside activity requests
                          submitted by appointed or acting NIH Office of the Director senior
                          staff and institute directors. The NEAC also advises the NIH
                          DEC on all outside activity requests submitted by institute deputy
                          directors, scientific directors, clinical directors, and extramural
                          directors, all of whom report directly to institute directors. For all
                          other employees, the NEAC advises the NIH DEC on any outside
                          activity request involving a biotechnology or pharmaceutical
                          company, compensation in excess of $10,000, and/or compensation
                          involving stocks, stock options, or other equity positions.
                      o 	 In February 2004, NIH transferred final approving authority for
                            senior officials from their institutes’ DECs to the NIH DEC.

                      10 70 Fed. Reg. 5,543, Feb. 3, 2005.




    OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                    54
A   P   P E N D       I X      ~       C


                      o 	 In February 2004, at the request of NIH, OGE determined that
                            93 additional NIH employees were eligible to file the public
                            financial form (SF-278) because the responsibilities and influence
                            of their positions were equivalent to those of other public filers.
                            OGE issued a second equal classification determination in
                            September 2004, adding another 547 employees to the roll of
                            public filers.
                      o 	 In August 2004, NIH added the ethics function to the performance
                            plans for all DECs and supervisors.
                      Internal Reviews
                      o 	 In December of 2003, NEAC began a review of all continuing
                          consulting activities with pharmaceutical and biotechnology
                          companies that were initiated between January 1999 and
                          December 2003. This review is ongoing.
                      o 	 In January 2004, the Director of NIH convened a blue ribbon
                            panel to examine NIH’s process for reviewing outside activities.
                            The panel issued its recommendations in June 2004. (See
                            Appendix E for a list of those recommendations.)
                      Enhanced Information Management
                      o 	 NIH is in the process of expanding the capabilities of its Ethics
                          Management Information System (EMIS) to allow for cross-checks
                          between proposed outside activities and official duties, research
                          partnerships, or other potential conflicts of interest. This system
                          will also provide detailed reporting information and will track the
                          status of pending ethics actions. In addition, the system will
                          allow for automated submission and approval of certain forms.
                          Institutes are encouraged, but not required, to enter information
                          on employees’ outside activities in EMIS. The enhanced EMIS
                          will also become a tool for random audits of employees’ ethics
                          activities.
                      Increased Training for Supervisors and Employees
                      o 	 In February 2004, NIH issued a memorandum to supervisors
                          explaining how to properly review outside activities.
                      o 	 In 2004, NIH conducted face-to-face ethics training effort for all of
                            its 18,000 employees.




    OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                     55
Δ   A P P E N D I X                     ~         D      




                  RECOMMENDATIONS FROM THE OFFICE OF GOVERNMENT
                  ETHICS
                  OGE issued a program review of NIH’s ethics system in July 2004. The
                  resulting recommendations, which were directed to the Designated
                  Agency Ethics Office for HHS (who oversees the NIH ethics program),
                  are quoted below.11 The Designated Agency Ethics Official for HHS
                  responded to OGE’s recommendations in October 2004.12
                    1. 	 Take certain steps to ensure that you directly coordinate and
                         manage the program. First, you should meet periodically with
                         NIH management so that you will be fully cognizant of current
                         and emerging ethics issues at NIH and be able to react to them
                         accordingly. These meetings should ensure that you are aware
                         when policies and procedures at NIH are not effective, and enable
                         you to make changes as needed. Second, you should meet with
                         NIH ethics officials and NIH management to determine what
                         policies need to be developed to deal with the issue of outside
                         consulting by NIH employees and develop an NIH-specific section
                         of the HHS supplemental regulation for submission to our Office
                         for concurrence and joint issuance. Finally, to formalize the
                         responsibilities of the institute DECs, their position descriptions
                         should contain a description of their ethics duties. The NIH DEC
                         should rate each DEC annually on the ethics portion of his or her
                         work.

                    2. 	 Ensure that NIH continues efforts to re-examine ongoing outside
                         activities.

                    3. 	 Ensure that outside activities are approved in accordance with the
                         requirements of the NIH Manual and the HHS supplemental
                         standards of conduct regulation, including the activities that we
                         identified for which no requests were submitted.




                  11 U.S. Office of Government Ethics memorandum to the Director of NIH, July 26, 2004,
                    pp. 19-20.
                  12 Department of Health & Human Services memorandum to the Acting Director of OGE,
                    October 22, 2004.



OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                                    56
A   P   P E N D       I X      ~       D


                        4. 	 Ensure that the requirements to collect annual updated
                             information on ongoing outside activities is clarified, and then
                             either: (1) improve the procedures for collecting the required
                             annual information or (2) eliminate the requirement from the
                             current Manual.

                        5. 	 Ensure that after review and recommendation by NEAC, the NIH
                             Senior Ethics Counsel has final approval/disapproval over outside
                             activity requests.

                        6. 	 Develop and propose new supplemental standards of conduct
                             specifically to address the kinds of consulting activities that have
                             raised recent concerns.

                        7. 	 Help NIH develop guidelines to use in determining whether an
                             individual outside activity request should be approved. The
                             guidelines should make clear that NIH must apply all relevant
                             provisions of the HHS Standards of Ethical Conduct to each
                             request it is considering.

                        8. 	 Develop internal procedures and criteria for NIH award reviewers
                             in connection with future award requests so that the recent OGE
                             guidance will be implemented consistently across all the ICs
                             [institutes and centers].

                        9. 	 Ensure that CC [Clinical Center] and OD [Office of the Director]
                             public financial disclosure reports are certified in a timely
                             manner.

                        10. Ensure that OD [Office of the Director] annual confidential
                            reports are collected in a timely manner.




    OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                      57
Δ   A P P E N D I X                     ~         E      



                  RECOMMENDATIONS FROM THE NIH BLUE RIBBON PANEL
                  NIH convened a Blue Ribbon Panel of independent experts in ethics,
                  academic research, and industry to assess the state of NIH’s ethics
                  system and policies. This Panel put forth 18 recommendations to NIH,
                  which are quoted below.13
                    1. 	 NIH senior management and NIH extramural employees who are
                         responsible for program funding decisions and recommendations,
                         and professional staff managing grants and contracts and
                         application review, should not engage in consulting activities with
                         pharmaceutical or biotechnology companies or in paid consulting
                         for academia. The Panel considers speaking for compensation at
                         an industry site as equivalent to consulting for industry. The
                         Panel does not include in this prohibition time spent in clinical
                         practice by health care practitioners, if approved as an outside
                         activity free of conflicts.

                    2. 	 The Panel reaffirms current Federal law, which states that
                         intramural scientists conducting research with human subjects—
                         for example, investigators and research team members involved in
                         patient selection, the informed consent process, and clinical
                         management of a trial—should not be allowed to have any
                         financial interest in or relationship with any company whose
                         interests could be affected by their research or clinical trial, except
                         in special circumstances, and with an appropriate waiver or
                         authorization.




                  13 Blue Ribbon Panel Report on Conflict of Interest Policies, Report of the National
                    Institutes of Health, June 22, 2004, pp. 2-5.



OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                                   58
A P P E N D        I X      ~       E


                     3. In addition to existing requirements for engaging in outside
                        activities, and the restrictions posed in Recommendations 1 and 2,
                        the following requirements should be in place for all employees
                        who are involved in the administration or conduct of NIH research
                        programs:

                                a. The total amount earned annually from compensated
                                   consulting with industry or academia should not exceed an
                                   amount equal to 50 percent of the employee’s annual
                                   salary, and no one source should account for an amount
                                   exceeding 25 percent of annual salary.
                                b. Employees eligible to engage in compensated outside
                                   professional activities should not:

                                              i. receive compensation in the form of stock options or
                                                 other forms of equities for their services, or

                                             ii. spend more than 400 hours per year on these
                                                 activities (writing excepted).

                                c. An exclusion to the above limits should exist for NIH
                                   employees who are health care practitioners. For these
                                   employees, there should be a more flexible time limitation
                                   and the capitation for compensated outside medical care
                                   and patient services should be 100 percent of base pay,
                                   with the one-source limitation removed.

                     4. To improve NIH’s ability to manage and track approved outside
                        activities:

                                a. All requests for outside activities (Form 520) should be
                                   updated on an annual basis (with such updates indicating
                                   only those changes that have occurred);

                                b. Supervisors should be held accountable for the evaluation
                                   and approval of outside activity requests, and this
                                   supervisory function should be a component of a
                                   supervisor’s performance evaluation; and

                                c. NIH should publish an annual agency-wide statistical
                                   report on the number and types of outside activities
                                   approved for its employees.




 OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                          59
A P P E N D        I X      ~       E


                     5. 	 NIH should seek a change to OGE regulations to allow NIH
                          scientists to receive compensation for teaching, speaking, or
                          writing about their research providing that the information is to
                          be shared in a public forum and that it has appeared in the
                          published literature.

                     6. 	 NIH intramural scientists should continue to be allowed to engage
                          in compensated speaking, teaching, and writing for professional
                          societies and for academic and research institutions as an outside
                          activity providing that all ethics review and approval
                          requirements are met.
                     7. 	 NIH should seek a change to OGE regulations to permit employees
                          to be identified by their title or position (and institutional
                          affiliation) when engaged in teaching, speaking, or writing as an
                          approved outside activity. Disclaimers should be provided that the
                          activity is not being conducted in the employee’s official capacity
                          as an NIH employee and that the views expressed do not
                          necessarily represent the views of NIH.

                     8. 	 There should be no restrictions on royalties received on works
                          written, edited, or published or on income received from patents
                          licensed by any NIH employee who conducted the work as an
                          approved outside activity.

                     9. 	 The current OGE rules regarding receipt of bona fide cash awards
                          for meritorious public service or achievement and NIH’s
                          interpretations of the rules are reasonable and should apply to all
                          employees. There should be no limit on the amount of money
                          received from a bona fide award. These awards are considered
                          gifts under current law and are not considered outside activities
                          because the employee accepts the award in his or her official
                          capacity.

                     10. To increase NIH’s ability to manage conflicts of interest, it should
                         move immediately to either increase the number of employees
                         required to annually file a confidential disclosure form (Form 450)
                         or find some other means to achieve comparable levels of internal
                         disclosure.




 OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                  60
A P P E N D        I X      ~       E


                     11. NIH should ask OGE to make a regulatory change or seek
                         statutory modifications to provide NIH with greater discretion in
                         determining whether certain Title 42 employees should file a
                         public financial disclosure form (Form 278). This would promote
                         the public interest by increasing transparency and would thereby
                         enhance trust in government. In the meantime, NIH should seek
                         additional equivalency rulings from OGE to increase the number
                         of public filers to include the senior employees specified in
                         Recommendation 1.

                     12. NIH supervisors should be provided with enhanced training on the
                         criteria to be used for their annual review of financial disclosures
                         so that they can become more effective in managing and avoiding
                         employee conflicts of interest.

                     13. To preserve public confidence in NIH, the agency should put in
                         place a policy that requires employees to disclose all relevant
                         outside relationships and financial holdings in their work
                         products, such as publications, speeches, and invention
                         disclosures. In addition, where relevant, such disclosures should
                         be made to potential research subjects as part of the informed
                         consent process.

                     14. NIH employees should be required to submit recusals in writing to
                         immediate supervisors when a potential conflict of interest
                         emerges. The supervisor should then be required to inform those
                         who should be aware of the employee’s need to be recused from the
                         official duties for which there is a conflict. As is currently the
                         case, when an employee must be recused from official duties, those
                         duties can be reassigned only to someone at an organizational
                         level above the employee. As such, recused employees or their
                         supervisors will need to inform both superiors and affected
                         subordinates of the recusal.

                     15. The NIH Ethics Office should prepare a user-friendly document
                         and website that displays the ethics rules in simple language and
                         emphasizes examples of outside activities and financial interests
                         that are permissible, as well as those that are not. Employees
                         seeking approval of outside activities should, as part of their
                         submission of Form 520 and its supplements, indicate in writing
                         that they have reviewed these summary materials and have
                         discussed any questions they have with their relevant ethics
                         official and/or supervisor.

 OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                 61
A P P E N D        I X      ~       E


                     16. The NIH Ethics Advisory Committee should issue a report of its
                         findings, in the form of anonymous case studies and generalizable
                         principles, on a regular basis to provide the NIH community with
                         a clear common body of knowledge by which to understand and
                         interpret ethics rules.

                     17. NIH management should assure that sufficient resources are
                         provided for the administrative and management functions of its
                         ethics activities to guarantee that the expanded program proposed
                         in this report can be implemented.

                     18. The NIH Director, working with Congress, should ensure that the
                         agency has authority under Title 42, or some other hiring
                         mechanism, to recruit senior scientific staff in the current highly
                         competitive market. In addition, the NIH Director should ask
                         HHS to review and, if appropriate, raise the current annual salary
                         capitation of $200,000 for the most senior Title 42 employees at
                         NIH. The Panel is concerned that the present ceiling is limiting
                         the agency’s ability to recruit and retain the nation’s best
                         scientists as the leaders of NIH.




 OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES                 62
Δ   A C K N O W L E D G M E N T S                                        




                  This report was prepared under the direction of Joyce M. Greenleaf,
                  MBA, Regional Inspector General for Evaluation and Inspections in the
                  Boston regional office. Other principal Office of Evaluation and
                  Inspections staff who contributed include:

                  Aimée Golbitz, Team Leader
                  Sara Schulman, Project Leader

                  Tanaz Dutia, Program Analyst

                  Michael Flood, Program Analyst

                  Steven Keenan, Program Analyst

                  Genevieve Nowolinski, Program Specialist

                  Elise Stein, Director, Public Health and Human Services



                  Technical Assistance

                  Barbara Tedesco, Mathematical Statistician

                  Kevin Farber, Mathematical Statistician



                  Office of Counsel to the Inspector General

                  Melinda Golub, Senior Counsel




OEI-01-04-00150   OUTSIDE ACTIVITIES   OF   SENIOR-LEVEL NIH EMPLOYEES             63
